<html>
<title> - CONFRONTING THE NORTH KOREA THREAT: REASSESSING POLICY OPTIONS</title>
<body><pre>[Senate Hearing 115-742]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-742

                CONFRONTING THE NORTH KOREA THREAT: 
                     REASSESSING POLICY OPTIONS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                              __________

                          JANUARY 31, 2017

                               __________



       Printed for the use of the Committee on Foreign Relations

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                   Available via the World Wide Web:
                         http://www.govinfo.gov

                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-600 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------




                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  
  
                       C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1
Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     2
Eberstadt, Nicholas, Ph.D., Henry Wendt Chair in Political 
  Economy, American Enterprise Institute, Washington, DC.........     4
    Prepared statement...........................................     5
Snyder, Scott, Senior Fellow for Korea Studies and Director of 
  the Program on U.S.-Korea Policy, Council on Foreign Relations, 
  Washington, DC.................................................     9
    Prepared statement...........................................    10

              Additional Material Submitted for the Record

Responses of Dr. Nicholas Eberstadt to Questions Submitted by 
  Senator Todd Young.............................................    33


                             (iii)        

 
     CONFRONTING THE NORTH KOREA THREAT: REASSESSING POLICY OPTIONS

                              ----------                              


                       TUESDAY, JANUARY 31, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:31 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Risch, Johnson, 
Gardner, Young, Cardin, Menendez, Shaheen, Kaine, Markey, 
Merkley, and Booker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order.
    The North Korean threat is one of the most urgent security 
challenges facing the United States. Yet for nearly three 
decades, successive Republican and Democratic administrations 
have pursued the seemingly elusive goal of North Korean 
denuclearization, with little to show for their efforts.
    The United States, along with allies and partners, have 
employed a variety of tools, including diplomacy, deterrence, 
and sanctions to persuade North Korea to abandon its illicit 
nuclear missile programs. In addition, Congress has done its 
part to strengthen the hand of the United States to confront 
the threat posed by North Korea. Last year, spearheaded by 
Senators Gardner and Menendez, the Foreign Relations Committee 
paved the way for Congress to pass unanimously the first North 
Korea-specific comprehensive sanctions and policy legislation, 
signed into law by President Obama on February the 18th, 2016. 
However, no combination of incentives and disincentives has 
brought us any closer to ending the threat posed by North 
Korea.
    We could spend all day discussing the strengths and 
weaknesses of various combinations of tools and the reasons why 
past approaches have not yielded the desired result. There are 
many, including China's lax enforcement of multi-lateral 
sanctions. Yet the fact remains that the threat posed by North 
Korea has only grown more alarming.
    In the past year North Korea conducted over 20 missile 
launches and tested two nuclear devices, bringing its total 
number of nuclear tests to date to five. And in its recent New 
Year's address, Kim Jong-un claimed that North Korea was ready 
to launch an ICBM at any time. Pyongyang has increasingly 
appeared to be on a trajectory to have the capability to launch 
an ICBM capable of reaching the continental United States, a 
missile that could possibly carry a miniaturized nuclear 
device.
    Something obviously has to give. The current approach is 
not working, and the urgency of the North Korea threat states 
that we spend some time thinking outside the box about U.S. 
strategy towards North Korea. For example, does the pursuit of 
North Korean denuclearization remain a realistic policy 
objective in the near term? Alternatively, should the United 
States consider policy approaches that proactively pursue 
regime change in North Korea by non-kinetic means?
    The recent defection of a high-level North Korean diplomat 
suggests that there may be opportunities to exploit pockets of 
regime instability. In addition, should the United States be 
prepared to preemptively strike a North Korean ICBM on a launch 
platform?
    Of course, in spite of their shortcomings, diplomacy, 
deterrence, and sanctions remain important tools, and we should 
redouble our efforts to enforce sanctions and work with our 
Japanese and South Korean allies to strengthen deterrence 
capabilities.
    However, as we find ourselves staring down the barrel of a 
North Korean ICBM, we have an obligation to the American people 
to challenge existing assumptions and explore policy 
alternatives. I hope we are going to be able to have a 
thoughtful discussion today that outlines U.S. interests on the 
Korean peninsula and, more importantly, provides the new 
administration with some food for thought as it shapes its 
approach to U.S.-North Korea policy in the coming months. I 
look forward to hearing from these witnesses, and I want to 
thank our ranking member for allowing this hearing to take 
place, for his cooperation a few moments ago, and I look 
forward to his comments.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, thank you, Mr. Chairman. I share the 
comments that you just said in regards to today's hearing. 
Thank you for having the hearing. I thank our witnesses for 
being here. I think you have laid out the issues pretty 
clearly.
    It is clear that North Korea, according to the statement of 
their leader, is in the final stages of testing and launching 
the intercontinental ballistic missile. If North Korea 
successfully launches an ICBM, it would be well on its way to 
joining China and Russia as the only countries that can 
directly target the United States with a nuclear weapon.
    I noticed that President Trump said, ``It won't happen.'' 
Does that mean we have drawn a red line? We know the 
consequences of drawing red lines. The Chairman pointed out 
that we may have to consider military options. I understand 
that. But I am concerned about the role of our foreign policy 
when the President of the United States announces policies 
without having it properly vetted by the relevant agencies and 
the experts, recognizing the adverse consequences to some of 
his statements and whether what he does, in fact, is legal. We 
saw that this past weekend on his executive order dealing with 
immigration and our refugee program.
    I have already commented on that, about how reckless and 
dangerous I think that executive order was, and I do not 
believe it is constitutional or legal. As we saw with Ms. 
Yates' comments, and then, of course, after she made her 
comments, she was readily fired by the President of the United 
States, not leaving us any confirmed person in the Justice 
Department to exercise that important responsibility.
    We have tried isolation in the past, and it has not worked. 
We need to be engaged with other countries, and that is 
particularly true with North Korea. When we look at North 
Korea's capacity today, the amount of nuclear material it has, 
it has the nuclear material that could produce hundreds of 
nuclear weapons, and now they are working on a delivery system 
that could threaten the continental United States.
    Our past policies under both Democratic and Republican 
administrations have not been successful in allowing us to 
prevent them from pursuing this nuclear objective. But it is 
clear to me that the United States alone has little chance of 
preventing North Korea from achieving its stated objective, and 
that we need to work with other countries. First and foremost 
is our reliance on the Republic of Korea and Japan. I am glad 
that Secretary Mattis, in his first foreign policy trip, is 
visiting our allies in that region. I think that is a very 
important statement and something that we need to work with our 
allies on.
    So let me just talk briefly about the underlying 
assumptions in North Korea and whether we can change those 
equations. First and foremost, will China ever join us in 
effectively preventing North Korea from having the economic 
benefits that we have tried to prevent through the imposition 
of sanctions? Will they stop their importing of Korean coal? 
That is an area where we have to change the equation. Can we 
convince China that it is in their security interest for a non-
nuclear Korean peninsula, and how do we change that equation so 
that they can work effectively with us?
    We need to know whether North Korea wants and needs to 
rejoin the international community. Many of us think that North 
Korea has made the assumption that they can continue to go down 
this road. We have to change that equation so that North Korea 
has incentives to give up its nuclear program. And is there 
still time on our side? I think we all are concerned that time 
is working against us as North Korea continues these 
activities.
    We also need to know that if North Korea enters into an 
agreement, they will live up to it. The 1994 framework 
agreement had many problems. It did not limit North Korea's 
stockpile of fissile material to an 8-year period, but we have 
to see if we can get agreements that, in fact, can be carried 
out.
    So, Mr. Chairman, I want to strengthen our alliances with 
our partners. We need leadership at the United Nations on tough 
sanctions. We need roadblocks and rigorous actions to fully 
implement and enforce HR-757. I want to thank Senator Gardner 
and Senator Menendez for their leadership on that. We now need 
to make sure it is enforced. We need to make sure the U.N. 
sanctions are enforced. And we have to find out when is the 
appropriate time for sustained diplomatic efforts, because we 
always prefer to solve these problems through diplomacy rather 
than through force.
    Lastly, North Korea has many problems in addition to its 
nuclear program. It is a country that ranks at the bottom of 
the world in its respect for human rights and the development 
of its own people. We need to be mindful that whatever program 
we have in North Korea, it also needs to be focused on the 
people of North Korea, which gives us the greatest chance for a 
stable regime someday for the people of North Korea.
    The Chairman. Thank you.
    Senator Gardner, I want you to know I highlighted your 
efforts with Menendez last year, too, and I want to thank you 
for that and your strong interest in this area.
    With that, our first witness today is Dr. Nicholas 
Eberstadt, Henry Wendt Chair in Political Economy at the 
American Enterprise Institute. Thank you so much for being 
here.
    Our second witness is Mr. Scott Snyder, Senior Fellow for 
Korea Studies and Director of the Program on U.S.-Korea Policy 
at the Council on Foreign Relations.
    We respect the organizations you represent. I know these 
are your own individual comments. Your written testimony will 
be entered into the record. You are free to make shorter 
comments, hopefully under 5 minutes, and we will then ask 
questions. But thank you both for being here.
    If you would just begin in the order you were introduced.

 STATEMENT OF NICHOLAS EBERSTADT, PH.D., HENRY WENDT CHAIR IN 
 POLITICAL ECONOMY, AMERICAN ENTERPRISE INSTITUTE, WASHINGTON, 
                               DC

    Dr. Eberstadt. Mr. Chairman, distinguished members of the 
Senate Foreign Relations Committee, I am honored to be invited 
to discuss the gathering threat North Korea poses to the United 
States, our allies, and the international community, and what 
we can do to respond to this.
    I just wish in these remarks to make a few main points.
    First, North Korea is continuing down steadily, 
methodically and relentlessly, on a path whose intended 
endpoint is a credible capacity to hit New York and Washington 
with nuclear weapons.
    Secondly, America's policy for nuclear non-proliferation in 
North Korea is a prolonged and thoroughly bipartisan failure.
    Third, our North Korea policy is a failure because our 
public and our leaders do not understand our adversary and his 
intentions.
    Fourth, we cannot hope to cope successfully with the North 
Korea threat until we do.
    And fifth, any successful effort to make the North Korean 
threat smaller will require not just a better understanding of 
this adversary, but also a coherent and sustained strategy of 
threat reduction informed by such an understanding.
    Seeing the DPRK, the Democratic People's Republic of Korea, 
for what it is rather than what we would like it to be obliges 
us to recognize two highly unpleasant truths. First, the real 
existing North Korean leadership, as opposed to the imaginary 
version that some Westerners would like us to negotiate with, 
will never willingly give up their nuclear option. Acquiescing 
in denuclearization would be tantamount to abandoning its 
mission of Korean reunification, which is to say disavowing the 
DPRK's very raison d'etre.
    Second, international entreaties can never succeed in 
convincing the DPRK to relinquish its nuclear weapons program. 
Sovereign governments simply do not trade away their vital 
national interests. Quite simply, this means that engagement 
can never produce a denuclearization of the real existing North 
Korea. It is time to set aside the illusion that we can somehow 
engage North Korea into denuclearizing and to embrace instead a 
paradigm that has a chance of actually working. Call this 
threat reduction.
    Through a coherent long-term strategy, working with allies 
and others, but also perhaps acting unilaterally, the United 
States can blunt and then mitigate, and eventually help to 
eliminate the killing force of the North Korean state. Note, by 
the way, that we do not need Pyongyang's approval or assent to 
proceed with threat reduction, unlike engagement.
    In broad outline, North Korea threat reduction requires 
progressive development of more effective defenses against the 
DPRK's means of destruction while simultaneously weakening 
Pyongyang's capabilities for supporting both conventional and 
strategic forces. I describe some of the elements of such an 
approach in my statement.
    A more effective defense against the North Korean threat 
would be required, for example. Weakening the DPRK's military 
economy, the foundation for all its offensive capabilities, 
would surely also be in order. Diplomacy also has a role in 
this approach.
    Then there is the China question. China has been allowed to 
play a double game with North Korea for far too long, and it is 
time for Beijing to begin to pay a penalty for all its support 
for the world's most odious regime.
    Human rights promotion must also figure in our threat 
reduction strategy. If North Korean subjects enjoyed greater 
human rights, the DPRK killing machine could not possibly 
operate as effectively as it does today.
    And this brings us to the last item, preparing for a 
successful reunification with a post-DPRK peninsula. The Kim 
regime is the North Korean nuclear threat. That threat will not 
end until the DPRK disappears. We cannot tell how or when this 
will occur, but it is not too soon to commence the wide-ranging 
and painstaking international planning and preparations that 
will facilitate divided Korea's long-awaited reunion as a 
single peninsula, free and whole.
    Thank you.
    [The prepared statement of Dr. Eberstadt follows:]

            The Prepared Statement of Nicholas Eberstadt \1\

    Mr. Chairman, distinguished members of the Senate Foreign Relations 
Committee:
    I am honored to be invited to discuss the gathering threat North 
Korea poses to the United States, our allies, and the international 
community--and what we can respond to it.
    In my testimony I wish to make five main points:
    First: North Korea is embarked on a steady, methodical, and 
relentless journey, whose intended endpoint is a credible capacity to 
hit New York and Washington with nuclear weapons.
    Second: America's policy for nuclear nonproliferation in North 
Korea is a prolonged, and thoroughly bipartisan, failure.
    Third: Our North Korea policy is a failure because our public and 
our leaders do not understand our adversary and his intentions.
    Fourth: We cannot hope to cope successfully with the North Korean 
threat until we do.
    Fifth: Any successful effort to make the North Korean threat 
smaller will require not just better understanding of this adversary, 
but also a coherent and sustained strategy of threat reduction informed 
by such an understanding.
                                   i
    Our seemingly unending inability to fathom Pyongyang's true 
objectives, and our attendant proclivity for being taken by surprise 
over and over again by North Korean actions, is not just a matter of 
succumbing to Pyongyang's strategic deceptions, assiduous as those 
efforts may be.
    The trouble, rather, is that even our top foreign policy experts 
and our most sophisticated diplomatists are creatures of our own 
cultural heritage and intellectual environment. We Americans are, so to 
speak, children of the Enlightenment, steeped in the precepts of our 
highly globalized era. Which is to say: we have absolutely no common 
point of reference with the worldview, or moral compass, or first 
premises of the closed-society decision makers who control the North 
Korean state. Americans' first instincts are to misunderstand 
practically everything the North Korean state is really about.
    The DPRK is a project pulled by tides and shaped by sensibilities 
all but forgotten to the contemporary West. North Korea is a hereditary 
Asian dynasty (currently on its third Kim)--but one maintained by 
Marxist-Leninist police state powers unimaginable to earlier epochs of 
Asian despots and supported by a recently invented and quasi-religious 
ideology.\2\
    And exactly what is that ideology? Along with its notorious variant 
of emperor worship,``Juche though'' also extols an essentially 
messianic--and unapologetically racialist--vision of history: one in 
which the long-abused Korean people finally assume their rightful place 
in the universe by standing up against the foreign races that have long 
oppressed them, at last reuniting the entire Korean peninsula under an 
independent socialist state (i.e., the DPRK). Although highly redacted 
in broadcasts aimed at foreign ears, this call for reunification of the 
mijnok (race), and for retribution against the enemy races or powers 
(starting with America and Japan), constantly reverberates within North 
Korea, sounded by the regime's highest authorities.\3\
    This is where its nuclear weapons program fits into North Korea's 
designs. In Pyongyang's thinking, the indispensable instrument for 
achieving the DPRK's grand historical ambitions must be a supremely 
powerful military: more specifically, one possessed of a nuclear 
arsenal that can imperil and break the foreign enemies who protect and 
prop up what Pyongyang regards as the vile puppet state in the South, 
so that the DPRK may consummate its unconditional unification and give 
birth to its envisioned earthly Korean-race utopia.
    In earlier decades, Pyongyang might have seen multiple paths to 
this Elysium, but with the collapse of the Soviet empire, the long-term 
decline of the DPRK's industrial infrastructure, and the gradually 
accumulating evidence that South Korea was not going to succumb on its 
own to the revolutionary upheaval Pyongyang so dearly wished of it, the 
nuclear option increasingly looks to be the one and only trail by which 
to reach the Promised Kingdom.
                                   ii
    Like all other states, the North Korean regime relies at times upon 
diplomacy to pursue its official aims-- thus, for example, the abiding 
call for a ``peace treaty'' with the US to bring a formal end to the 
Korean War (since 1953 only an armistice, or cease-fire, has been in 
place).\4\ Yet strangely few foreign policy specialists seem to 
understand why Pyongyang is so fixated on this particular document. If 
the US agreed to a peace treaty, Pyongyang insists, it would then also 
have to agree to a withdrawal of its forces from South Korea and to a 
dissolution of its military alliance with Seoul--for the danger of 
``external armed attack'' upon which the Seoul-Washington Mutual 
Defense Treaty is predicated would by definition no longer exist. If 
all this could come to pass, North Korea would win a huge victory 
without firing a shot.
    But with apologies to Clausewitz, diplomacy is merely war by other 
means for Pyongyang. And for the dynasty the onetime anti-Japanese 
guerrilla fighter Kim Il Sung established, policy and war are 
inseparable--this is why the DPRK is the most highly militarized 
society on the planet. This is also why the answer to the unification 
question that so preoccupies North Korean leadership appears to entail 
meticulous and incessant preparations, already underway for decades, to 
fight and win a limited nuclear war against the United States.
    To almost any Western reader, the notion that North Korea might 
actually be planning to stare down the USA in some future nuclear face-
off will sound preposterous, if not outright insane. And indeed it 
does--to us. Yet remember: as we already know from press reports, North 
Korea has been diligently working on everything that would actually be 
required for such a confrontation: miniaturization of nuclear warheads, 
intercontinental ballistic missiles, and even cyberwarfare (per the 
Sony hacking episode). Note further that while North Korean leadership 
may be highly tolerant of casualties (on the part of others, that is) 
it most assuredly is not suicidal itself. Quite the contrary: its acute 
interest in self-preservation is demonstrated prima facie by the fact 
of its very survival, over 25 years after the demise of the USSR and 
Eastern European socialism. It would be unwise of us to presume that 
only one of the two forces arrayed along the DMZ is capable of thinking 
about what it would take to deter the other in a time of crisis on the 
Peninsula.
                                  iii
    At this juncture, as so often in the past, serious people around 
the world are calling to ``bring North Korea back to the table'' to try 
to settle the DPRK nuclear issue. However, seeing the DPRK for what it 
is, rather than what we would like it to be, should oblige us to 
recognize two highly unpleasant truths.
    First, the real existing North Korean leadership (as opposed to the 
imaginary version some Westerners would like to negotiate with) will 
never willingly give up their nuclear option. Never. Acquiescing in 
denuclearization would be tantamount to abandoning the sacred mission 
of Korean unification: which is to say, disavowing the DPRK's raison 
d'etre. Thus submitting to foreign demands to denuclearize could well 
mean more than humiliation and disgrace for North Korean leadership: it 
could mean delegitimization and destabilization for the regime as well.
    Second, international entreaties--summitry, conferencing, 
bargaining, and all the rest--can never succeed in convincing the DPRK 
to relinquish its nuclear program. Sovereign governments simply do not 
trade away their vital national interests.
    Now, this is not to say that Western nonproliferation parlays with 
the DPRK have no results to show at all. We know they can result in 
blandishments (as per North Korea's custom of requiring ``money for 
meetings'') and in resource transfers (as with the Clinton 
administration's Agreed Framework shipments of heavy fuel oil). They 
can provide external diplomatic cover for the DPRK the nuclear program, 
as was in effect afforded under the intermittent 2003-07 Six Party 
Talks in Beijing. They can even lure North Korea's interlocutors into 
unexpected unilateral concessions, as witnessed in the final years of 
the George W. Bush administration, when Washington unfroze illicit 
North Korean overseas funds and removed Pyongyang from the list of 
State Sponsors of Terrorism in misbegotten hope of a ``breakthrough.'' 
The one thing ``engagement'' can never produce, however, is North 
Korean denuclearization.
    Note, too, that in every realm of international transaction, from 
commercial contracts to security accords, the record shows that, even 
when Western bargainers think they have made a deal with North Korea, 
the DPRK side never has any compunction about violating the 
understanding if that should serve purposes of state. This may outrage 
us, but it should not surprise us: for under North Korea's moral code, 
if there should be any advantage to gain from cheating against 
foreigners, then not cheating would be patently unpatriotic, a disloyal 
blow against the Motherland.
    Yes, things would be so easier for us if North Korea would simply 
agree to the deal we want them to accept. But if we put the wishful 
thinking to one side, a clear-eyed view of the North Korea problematik 
must be resigned to the grim reality that diplomacy can only have a 
very limited and highly specific role in addressing our gathering North 
Korean problem.
    Diplomacy must have some role because it is barbaric not to talk 
with one's opponent--because communication can help both sides avoid 
needless and potentially disastrous miscalculations. But the notion of 
a ``grand bargain'' with Pyongyang--in which all mutual concerns are 
simultaneously settled, as the ``Perry Process'' conjectured back in 
the 1990s and others have subsequently prophesied--is nothing but a 
dream.
    It is time to set aside the illusion of ``engaging'' North Korea to 
effect nonproliferation and to embrace instead a paradigm that has a 
chance of actually working: call this ``threat reduction.'' Through a 
coherent long-term strategy, working with allies and others but also 
acting unilaterally, the United States can blunt, then mitigate, and 
eventually help eliminate the killing force of the North Korean state.
                                   iv
    In broad outline, North Korean threat reduction requires 
progressive development of more effective defenses against the DPRK's 
means of destruction while simultaneously weakening Pyongyang's 
capabilities for supporting both conventional and strategic offense.
    A more effective defense against the North Korean threat would 
consist mainly, though not entirely, of military measures. Restoring 
recently sacrificed US capabilities would be essential. Likewise more 
and better missile defense: THAAD systems (and more) for South Korea 
and Japan, and moving forward on missile defense in earnest for the 
USA. It would be incumbent on South Korea to reduce its own 
population's exposure to North Korean death from the skies through 
military modernization and civil defense. DPRK would be served notice 
that 60 years of zero-consequence rules of engagement for allied forces 
in the face of North Korean ``provocations'' on the Peninsula had just 
come to an end. But diplomacy would count here as well: most 
importantly, alliance strengthening throughout Asia in general and 
repairing the currently frayed ROK-Japan relationship in particular. 
Today's ongoing bickering between Seoul and Tokyo reeks of interwar 
politics at its worst; leaders who want to live in a postwar order need 
to rise above such petty grievances.
    As for weakening the DPRK's military economy, the foundation for 
all its offensive capabilities: reinvigorating current 
counterproliferation efforts, such as PSI and MCTR, is a good place to 
start. But only a start. Given the ``military first'' disposition of 
the North Korean economy,\5\ restricting its overall potential is 
necessary as well. South Korea's subsidized trade with the North, for 
example, should come to an end. And put Pyongyang back on the State 
Sponsors of Terrorism list--it never should have been taken off. 
Sanctions with a genuine bite should be implemented--the dysfunctional 
DPRK economy is uniquely susceptible to these, and amazing as this may 
sound, the current sanctions strictures for North Korea have long been 
weaker than, say, those enforced until recently for Iran. (We can 
enforce such sanctions unilaterally, by the way.) And not least 
important: revive efforts like the Illicit Activities Initiative, the 
brief, but tremendously successful Dubya-era task force for tracking 
and freezing North Korea's dirty money abroad.
    Then there is the China question. Received wisdom in some quarters 
notwithstanding, it is by no means impossible for America and her 
allies to pressure the DPRK if China does not cooperate (see previous 
paragraph). That said: China has been allowed to play a double game 
with North Korea for far too long, and it is time for Beijing to pay a 
penalty for all its support for the most odious regime on the planet 
today. We can begin by exacting it in diplomatic venues all around the 
world, starting with the UN. NGOs can train a spotlight on Beijing's 
complicity in the North Korean regime's crimes. And international 
humanitarian action should shame China into opening a safe transit 
route to the free world for North Korean refugees attempting to escape 
their oppressors.
    If North Korean subjects enjoyed greater human rights, the DPRK 
killing machine could not possibly operate as effectively as it does 
today.\6\ Activists will always worry about the instrumentalization of 
human rights concerns for other policy ends--and rightly so. Today and 
for the foreseeable future, however, there is no contradiction between 
the objectives of human rights promotion and nonproliferation in the 
DPRK. North Korea's human rights situation is vastly worse than in 
apartheid South Africa--why hasn't the international community (and 
South Korean civil society) found its voice on this real-time, ongoing 
tragedy? The Office of the UN High Commissioner on Human Rights has 
already prepared a comprehensive Commission of Inquiry on the situation 
in the DPRK \7\: let governments of conscience seek international 
criminal accountability for North Korea's leadership.
    Many in the West talk of ``isolating'' North Korea as if this were 
an objective in its own right. But a serious DPRK threat reduction 
strategy would not do so. The North Korean regime depends on isolation 
from the outside world to maintain its grip and conduct untrammeled 
pursuit of its international objectives. The regime is deadly afraid of 
what it terms ``ideological and cultural poisoning'': what we could 
call foreign media, international information, cultural exchanges, and 
the like. We should be saying: bring on the ``poisoning''! The more 
external contact with that enslaved population, the better. We should 
even consider technical training abroad for North Koreans in 
accounting, law, economics, and the like-- because some day, in a 
better future, that nation will need a cadre of Western-style 
technocrats for rejoining our world.
    This brings us to the last agenda item: preparing for a successful 
reunification in a post-DPRK peninsula. The Kim regime is the North 
Korean nuclear threat; that threat will not end until the DPRK 
disappears. We cannot tell when, or how, this will occur. But it is not 
too soon to commence the wide-ranging and painstaking international 
planning and preparations that will facilitate divided Korea's long-
awaited reunion as a single peninsula, free and whole.

----------------
Notes

    \1\ Mr. Eberstadt holds the Henry Wendt Chair in Political Economy 
at the American Enterprise Institute (AEI) and is Senior Adviser to the 
National Bureau of Asian Research (NBR). He is also a founding board 
member of the US Committee for Human Rights in North Korea. The views 
expressed here are solely his own. These remarks are an extended and 
updated version of an essay published in National Review.
    \2\ Cf. Nicholas Eberstadt, The End of North Korea (AEI Press, 
1999).
    \3\ For penetrating discussions of North Korea's ideology, see B. 
R. Myers, The Cleanest Race (Melville House, 2010) and B. R. Myers, 
North Korea's Juche Myth (Sthele Publishers, 2015).
    \4\ For background on North Korean negotiating behavior, see Chuck 
Down's classic study Over The Line: North Korean: Negotiating Strategy 
(AEI Press, 1998). Although published nearly two decades ago, its 
depiction of the DPRK's approach is still absolutely up to date.
    \5\ Students of North Korean affairs will note that the concept of 
``Military First Politics'' (in Korean, Songun Chongchi) arose under 
the rule of ``Dear Leader'' Kim Jong Il, who died in 2011, and that 
``Dear Respected'' Kim Jong Un has promoted his own ``Byungjin Line'' 
(parallel development of military and civilian economies) since his 
father's death. This is true--but there should be no doubt that 
military first politics remains absolutely current and continues to be 
extolled constantly in North Korea's state media. Between January 2012 
and January 2017, items in Pyongyang's official Korea Central News 
Agency (KCNA) mentioned ``songun'' over 4,700 times. Derived from NK 
NEWS Database of North Korean Propaganda, http://www.nk-news.net/
search.php?newQueryButton=%3C%3C+New+Query (January 30, 2017).
    \6\ For a detailed exposition of the North Korean state's apparatus 
of human rights denial, see two seminal reports by Robert M. Collins 
for the US Committee on Human Rights in North Korea: Marked for Life: 
Songbun, North Korea's Social Classification System (HRNK 2012), 
https://www.hrnk.org/uploads/pdfs/HRNK--Songbun--Web.pdf (January 30, 
2017), and Pyongyang Republic: North Korea's Capital of Human Rights 
Denial (HRNK 2016), https://www.hrnk.org/uploads/pdfs/Collins--
PyongyangRepublic--FINAL--WEB.pdf (January 30, 2017).
    \7\ UN Human Rights Office of the High Commissioner, ``Report of 
the Detailed Findings of the Commission of Inquiry on Human Rights in 
the Democratic People's Republic of Korea,'' A/HRC/25/CRP.1, February 
2, 2014, http://www.ohchr.org/EN/HRBodies/HRC/CoIDPRK/Pages/
CommissionInquiryonHRinDPRK.aspx (January 30, 2017).

    The Chairman. Thank you, sir. Thank you very much.
    Mr. Snyder?

STATEMENT OF SCOTT SNYDER, SENIOR FELLOW FOR KOREA STUDIES AND 
   DIRECTOR OF THE PROGRAM ON U.S.-KOREA POLICY, COUNCIL ON 
               FOREIGN RELATIONS, WASHINGTON, DC

    Mr. Snyder Mr. Chairman, committee members, thank you for 
the opportunity to appear before you today. I find much with 
which I agree in the opening statements of Senator Corker and 
Senator Cardin.
    In my statement I argue that the window of opportunity to 
achieve North Korea's peaceful denuclearization may have 
closed, and that Kim Jong-un has decided, based on lessons from 
Iran, Iraq, and Libya, that North Korea must be too nuclear to 
fail wherever he intends to threaten the United States with a 
direct nuclear strike capability, a development that would 
heighten the risk and likelihood of military conflict.
    My recommendations are designed to minimize the risks of 
miscalculation on both sides, and I have focused on ways of 
avoiding unintended consequences arising from some of the steps 
that we must take to address North Korea's nuclear challenge.
    To minimize miscalculation and underscore the urgency of 
the North Korea issue, I recommend that the President appoint a 
senior and trusted special envoy to comprehensively mobilize 
U.S. Government resources, strengthen alliance solidarity with 
South Korea and Japan, separate the North Korea issue from 
other contentious issues in the U.S.-China relationship, and 
ensure that we can back our words toward North Korea with 
credible actions.
    As North Korea attempts to underscore that time is not on 
the side of the United States through its provocations and 
crisis instigation, the United States must avoid falling into 
the traps of acquiescence to a nuclear North Korea of premature 
unilateral military actions that might help North Korea to 
break U.S. alliances.
    The United States must strengthen alliance cohesion while 
preparing for North Korea instability. General Mattis' decision 
to visit U.S. allies in South Korea and Japan later this week, 
as his first foreign destinations following his assumption of 
office, sends a badly needed message of assurance and resolve 
to our allies at a time of transition and uncertainty in both 
Washington and Seoul.
    While China's cooperation is necessary to place needed 
pressure on North Korea, we must also recognize that North 
Korea lives in the space created by Sino-U.S. strategic 
mistrust. This means that China's inadequate enforcement of 
sanctions will never meet U.S. expectations due to differing 
American and Chinese strategic interests on the peninsula. An 
unintended consequence is that North Korea's supply chain has 
become embedded in illicit Chinese procurement networks. While 
continuing to pressure China to enforce sanctions, the United 
States will have to use secondary sanctions on Chinese partners 
of North Korea if it hopes to stop North Korea's nuclear and 
missile parts procurement.
    Tougher sanctions are also necessary to block North Korea's 
nuclear missile development, but an unintended consequence of 
sanctions is that they reinforce the isolation and opacity that 
have enabled the Kim regime to survive by bolstering unity 
among North Korean elites. I recommend that we erode Kim Jong-
un's internal support base by making the argument that North 
Korean elites can have a better future outside the regime than 
in it, and by increasing the incentives and pathways for them 
to exit North Korea. We should prioritize eroding the regime's 
isolation by promoting information inflow and oppose 
transparency by supporting and publicizing the powerful 
indictment of the Kim regime's human rights practices contained 
in the report of the U.N. Commission of Inquiry of Human Rights 
in North Korea.
    Thank you.
    [The prepared statement of Mr. Snyder follows:]

               The Prepared Statement of Mr. Scott Snyder

                 executive summary and recommendations
    <bullet> There is a rising danger of miscalculation on the Korean 
peninsula today. Kim Jong Un is emboldened by North Korea's nuclear and 
missile weapons development and believes that a new U.S. administration 
will acquiesce to the existence of a nuclear North Korea. The Trump 
administration must work urgently to define terms of engagement with 
North Korea and strengthen international coordination to reverse North 
Korea's nuclear weapons program.
    <bullet> The window of opportunity to achieve North Korea's 
peaceful denuclearization may have closed. Because Kim Jong Un clings 
to the North Korean nuclear program both as an internal justification 
for his rule and as a deterrent against perceived external threats, he 
will not willingly give it up.
    <bullet> At present, there is no viable intersection of interests 
between the United States and North Korea. North Korea has decided 
based on lessons from Iran, Iraq, and Libya that it must be too nuclear 
to fail, while the United States cannot accept the global security 
risks of allowing a totalitarian, nuclear North Korea to defy the NPT, 
proliferate, or pursue nuclear blackmail against its neighbors.
    <bullet> The most realistic U.S. strategy for countering North 
Korea's exploitation of geostrategic divisions and halting its sprint 
toward nuclear development is to close the gaps with allies and 
neighbors of North Korea. Comprehensive, omni-dimensional U.S.-Republic 
of Korea (ROK) and U.S.-Japan alliance-based political and military 
coordination are critical to deterring North Korea and assuring allies, 
not least because a North Korean strategic goal is to break U.S. 
alliances.
    <bullet> North Korea lives in the space created by Sino-U.S. 
geostrategic mistrust. The United States should work with China where 
possible, but cannot allow China to prevent the U.S. from taking 
necessary unilateral self-defensive measures to reverse North Korea's 
nuclear development. Despite a shared interest in denuclearization of 
the Korean peninsula, Washington and Beijing have differing interests 
and priorities regarding regional stability and the preferred end-state 
and orientation of a unified Korea that inhibit China's full 
cooperation to pressure North Korea.
    <bullet> Appoint a senior envoy for North Korea who reports 
directly to the president as a way of signaling the urgency of the 
North Korea issue, mobilizing bureaucratic and political support to 
maintain steady focus and follow-through on a time-consuming and urgent 
issue, and separating the issue from the already overloaded agenda in 
Sino-U.S. relations.
    <bullet> Promote internal debates among North Korean elites over 
the costs of North Korea's nuclear development as a way of bringing Kim 
Jong Un to realize that nuclear development puts his regime's survival 
at risk. The United States should support efforts to highlight to North 
Korean elites the costs of and alternatives to North Korea's nuclear 
development while providing incentives and pathways to encourage them 
to abandon Kim Jong Un's nuclear policy.
    <bullet> Maintain diplomatic dialogue with North Korea in order to 
spell out clearly the parameters for managing the relationship, 
objectives of U.S. policy toward North Korea, and expectations for 
North Korean behavior while strengthening deterrence and applying 
international pressure to reverse North Korea's missile and nuclear 
weapons development.
    confronting the north korean threat: reassessing policy options
    Mr. Chairman and members of the committee, I am honored to have the 
opportunity to appear before you to discuss challenges to U.S. national 
security by North Korea's missile and nuclear weapons development. I 
shared in advance with the Committee a recent Council on Foreign 
Relations-sponsored Independent Task Force report, titled ``A Sharper 
Choice on North Korea: Engaging China for a Stable Northeast Asia,'' 
that addresses many of the issues you wish to explore in some detail, 
and I respectfully request that the report be submitted for the record.
    A nuclear North Korea defies U.S. global security and 
nonproliferation interests. Its leader Kim Jong Un also continues to 
threaten nuclear strikes on the United States. Despite this, North 
Korea's nuclear and missile development remains unchecked. The United 
States must make it an urgent priority to prevent North Korea from 
making a strategic miscalculation based on its recent technical 
achievements.
    North Korea has intensified its efforts during 2016 to improve its 
nuclear and missile capabilities. This reflects Kim Jong Un's 
commitment to a policy adopted in 2012 that simultaneously pursues 
nuclear and economic development. The significance of this policy is 
that it has made nuclear weapons acquisition a source of domestic 
legitimacy for the Kim Jong Un regime.
    Exacerbating the situation is Kim Jong Un's belief, based on 
lessons from Iran, Iraq, and Libya, that his only sure means of 
survival is to be ``too nuclear'' to fail. Because Kim Jong Un has tied 
his legitimacy to the country's nuclear and economic development, I am 
pessimistic that external pressure alone can bring about North Korea's 
peaceful denuclearization and integration.
    While the Obama administration asserted that North Korea faces a 
``strategic choice'' and that it must return to the path of 
denuclearization, North Korea has sought to force a different strategic 
choice on the United States: America's acquiescence to North Korea as a 
nuclear state. And as the Kim Jong Un regime continued to test and 
advance its nuclear and missile capabilities, North Korea both argued 
and demonstrated that time is not on the side of the United States.
    In so doing, North Korea is seeking to divide the United States and 
its allies. It is exploiting growing doubts in South Korea about the 
reliability of U.S. commitments to the defense of allies against a 
nuclear-capable North Korea, while taking advantage of China's 
prioritization of North Korea's stability and survival as an even 
higher national interest than North Korea's denuclearization.
    The North Korean nuclear challenge is fundamentally a collective 
action problem. Although a nuclear North Korea defies the interests of 
its neighbors and the world, it exploits deeper sources of mistrust and 
geopolitical division through the threat of instability. Thus, for the 
United States to address this national security challenge, it must 
pursue a strategy that ``minds the gaps'' by relying on coordination 
with South Korean and Japanese allies, cooperation to the extent 
possible with China and Russia, and holistic implementation of 
diplomatic, informational, military, and economic tools. A persistent 
challenge for U.S. policymakers is how to apply the right mix in degree 
and character of these tools to not only deter North Korean aggression, 
but also to bring about North Korea's change in direction and support 
the full integration of North Korea into the international community.
    The best U.S. option to counter North Korea's nuclear development 
will be to lead a comprehensive and coordinated strategy designed both 
to prevent North Korea's further nuclear development and to take 
measures designed to induce debate among North Korean elites that 
economic opportunities and long-term prospects for survival will be 
denied to North Korea as long as Kim Jong Un holds tight to North 
Korea's nuclear arsenal. At the same time, the United States must guard 
against the failure of these efforts to enhance political and security 
coordination with its allies to respond to a possible conflict or 
contingency involving North Korea.
    Before the Obama administration took office in 2009, North Korea 
under an ailing Kim Jong Il took advantage of the U.S. presidential 
transition in an attempt to break out of Six Party denuclearization 
talks and to achieve recognition as a nuclear weapons state. On January 
17, 2009, North Korea asserted that it would no longer pursue the Six 
Party ``action for action'' formula whereby North Korea would 
denuclearize in exchange for economic assistance, diplomatic 
normalization, and peace talks with the United States,instead insisting 
that the U.S. abandon its ``hostile policy'' and normalize relations 
with a nuclear North Korea as a prerequisite to arms control talks and 
possible mutual denuclearization. This breakout strategy included an 
April 2009 ``satellite launch'' and its second nuclear test. The bulk 
of the Obama administration's first term was devoted to efforts to use 
diplomatic persuasion to convince North Korea to return to the status 
quo ante that had existed under Six Party Talks, including the securing 
of a freeze on North Korean nuclear and missile tests and a commitment 
to return to denuclearization talks, but these efforts failed when the 
North Koreans abandoned the February 29, 2012 ``Leap Day Agreement'' 
with North Korea and pursued further satellite launches and nuclear 
tests.
    During 2012 and 2013, as Kim Jong Un moved to consolidate his 
power, North Korea abandoned the pretense of ambiguity surrounding his 
nuclear program by declaring North Korea's nuclear development as a 
major accomplishment of his father and grandfather, adding North 
Korea's nuclear status to the constitution, threatening a nuclear 
strike on the United States, conducting an additional ballistic missile 
launch in December of 2012 and a third nuclear test in January of 2013, 
and adopting an overt policy of simultaneous nuclear and economic 
development in April 2013. The Obama administration responded by 
insisting in direct talks that North Korea make a ``strategic choice'' 
to return to denuclearization, but failed to mobilize the necessary 
economic or political pressure to convince Kim Jong Un that he indeed 
faced a strategic choice.
    The December 2014 Sony hack catalyzed a strong executive order from 
President Obama, but the U.S. government was slow to designate North 
Korean entities as sanctions violators, in part out of deference to the 
need to win Chinese cooperation in sanctions implementation. Only 
following North Korea's fourth nuclear test in January of 2016 and the 
subsequent passage of the North Korea Sanctions and Policy Enhancement 
Act did the Obama administration pursue sanctions implementation as an 
urgent priority. But the Obama administration also continued to 
prioritize cooperation with China over unilateral sanctions, 
effectively allowing China to set the pace and scope of sanctions 
implementation.
  foundation for deterring north korea: u.s.-rok alliance coordination
    The U.S.-ROK security alliance has been the primary and essential 
instrument for deterring North Korean provocations and keeping the 
peace for decades. Effective deterrence of North Korea requires 
continued readiness, enhanced capabilities, and close coordination 
between the U.S. Forces Korea (USFK) and South Korean counterparts 
against asymmetric North Korean threats including cyber, nuclear, and 
low-level conventional provocations. U.S.-ROK defense coordination has 
grown in recent years with the deepening and broadening of bilateral 
strategic and policy dialogues on issues such as cybersecurity and 
extended deterrence, the development of a joint counter-provocation 
plan, and continued development of military planning to deal with a 
wide range of Korean contingencies, including instability.
    General Mattis' decision to visit South Korea and Japan as part of 
his first overseas visit as Defense Secretary in the Trump 
administration is a vital signal of the priority of U.S. coordination 
with South Korea and a symbol of reassurance that the United States 
will uphold its defense commitments in Asia. The deployment of the 
Terminal High Altitude Air Defense (THAAD) system in South Korea is 
also an important step to counter advances in North Korea's missile 
development. With regard to this matter, the United States and South 
Korea should pursue a clear stance and more solidarity in their 
commitment to the deployment of the system in response to Chinese 
pressure on South Korea to halt the deployment.
    The United States and South Korea have expanded coordination over 
the past year to apply stronger diplomatic pressure on countries that 
cooperate financially and politically with North Korea. Both countries 
have expanded their respective unilateral sanctions designations 
against North Korean entities. South Korea has finally passed its own 
human rights law on the model of the U.S.-North Korea Human Rights Act 
in support of international efforts to hold North Korea accountable for 
human rights atrocities. The two governments have seen eye-to-eye on 
the importance of North Korea's denuclearization and the use of 
diplomatic pressure to achieve this objective. Even despite South 
Korea's current political vacuum, the Trump administration should 
maintain close cooperation with South Korean counterparts, and should 
prepare to work with a new South Korean government when it is elected 
to affirm cooperation and shared priorities between both governments. 
Most important will be the establishment of strong coordination 
mechanisms between the White House and the Blue House to manage and 
lead a joint political response to any possible North Korean 
contingencies.
    Regardless of his political orientation, the next South Korean 
president may be interested in reopening dialogue channels with North 
Korea to explore prospects for enhanced inter-Korean cooperation. This 
desire is understandable, but it is important that the United States 
and South Korea be on the same page in advance of renewed South Korean 
diplomatic efforts to engage with the North. In addition, South Korea 
should adhere to the letter and spirit of UN sanctions resolutions that 
have circumscribed economic cooperation with North Korea until the 
country returns to the path of denuclearization. The United States and 
South Korea should work together in coordinated fashion to encourage 
China to pursue full enforcement of UN Security Council resolutions.
    Finally, South Korea is an essential partner in strengthening 
information operations designed to provide alternative sources of 
information within North Korea. Over 30,000 North Korean refugees live 
in South Korea and have the best understanding of thinking inside North 
Korea. More importantly, a growing stream of refugees from North Korean 
elite classes should be mobilized to work on plans for how to integrate 
a non-nuclear North Korea with the outside world.
strengthening trilateral u.s.-japan-south korea coordination to enhance 
                          extended deterrence
    The United States, Japan, and South Korea established a senior 
consultation mechanism in 2016 to coordinate policy toward North Korea 
involving quarterly meetings at the vice-ministerial level in addition 
to regular meetings among senior envoys to discuss North Korea. In 
addition, both bilateral alliances have established specialized 
dialogues on extended deterrence that are focused on how the United 
States will meet its defense commitments in response to North Korea's 
growing nuclear capabilities.
                  north korea and sino-u.s. relations
    North Korea lives in the space created by Sino-U.S. strategic 
mistrust. The United States and China have a shared interest in a non-
nuclear North Korea, but the two countries prioritize that interest 
differently. The United States prioritizes North Korea's 
denuclearization as its top priority, while China desires 
denuclearization, but not at risk of instability. Moreover, the two 
countries have differing preferred end- states for the Korean 
peninsula. The U.S.-ROK long-term objective is a unified democratic 
Korea that is a market economy and remains a U.S. ally, while China 
insists that a unified Korea be friendly to China and would like to see 
the end of the alliance. China looks at the Korean peninsula through a 
geopolitical lens that invariably factors in concern about a U.S. 
security presence located so close to China. That concern would likely 
be magnified if a unified Korea were to remain as a U.S. ally.
    Given that China now represents most of North Korea's trade, 
including in food and fuel, China's cooperation is necessary for any 
sanctions effort to generate pressure on North Korea. However, the gap 
in Chinese and American strategic interests ensures that China will 
always try to calibrate its economic exchange with North Korea to 
assure stability within North Korea rather than to force Kim Jong Un to 
choose between survival and nuclear weapons. It is necessary for the 
United States to rely on cooperation with China to squeeze North Korea, 
but cooperation with China alone will never be sufficient to generate 
the level of pressure that would likely be needed to change Kim Jong 
Un's mind about his nuclear weapons--if such a change of mind is even 
possible.
    Proponents of expanded Sino-U.S. cooperation are able to point to 
the fact that China has agreed to an ever- tighter set of UN Security 
Council resolutions following each of North Korea's five nuclear tests, 
but China's interest in maintaining stability in North Korea will 
always inhibit China from cooperating sufficiently to change Kim Jong 
Un's mind. Instead, there is now a clear cycle of response to North 
Korea's nuclear tests in which China agrees to ``toughest ever 
sanctions,'' but then limits the scope of the final security council 
resolutions or dodges full implementation.
    Taking the latest example, UN Security Council Resolution 2321 
passed on November 30, 2016 for the first time set quantitative limits 
on China's import of coal for December of 2016 at 1 million tons or $53 
million, but Chinese customs data shows below that China far exceeded 
this ceiling, recording 2 million tons worth $168 million. The 
importation of coal in excess of the quantitative limits presumably 
occurred before China's commerce department announced a freeze on 
additional North Korean coal imports on December 11, suggesting that it 
was caused in part by anticipation of the restrictions contained in the 
UN Security Council resolution. Similarly, China's overall commodity 
imports from North Korea rose by 6 percent to $2.6 billion in 2016 
despite North Korea's two nuclear tests in January and September, 
suggesting that China is not applying adequate economic pressure on 
North Korea.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Ultimately, the United States faces an increasingly urgent and 
imminent threat that is likely to require unilateral measures. To fill 
the gap resulting from China's continual support of North Korea, the 
United States should adopt secondary sanctions on Chinese entities that 
trade with North Korea. However, the challenge is how to pursue 
secondary sanctions against Chinese entities, to which China objects, 
while continuing to maintain necessary (but inadequate) Chinese 
cooperation in implementing existing sanctions resolutions.
                       u.s.-north korea relations
    While there is currently little prospect for denuclearization 
negotiations with North Korea, there are outstanding issues that would 
benefit from the existence of direct diplomatic dialogue between 
officials from the two countries. Both sides need to understand clearly 
the conditions and prerequisites for broader negotiations and to convey 
the terms of interaction, even if there is no immediate prospect for a 
return to negotiations. For instance, a new administration could use 
such talks to signal directly how it would respond in the event of a 
North Korean ICBM launch toward U.S. territory or that a positive and 
necessary step forward if North Korea wants to start fresh with a new 
administration would be the release of two American citizens who have 
now been held in North Korea for over a year.
    Another challenge for the United States is how to induce an 
internal debate among North Korean elites about the costs of a nuclear 
North Korea. Sanctions alone are likely to convince North Korean elites 
that their only options are to unite in support of Kim Jong Un and his 
nuclear policy or to risk regime failure and international retribution-
that is to ``hang together or hang separately.'' For this reason, it is 
all the more important for senior officials around Kim Jong Un to know 
that there is an alternative pathway that can safeguard their survival. 
Given the absence of overt internal dissent within North Korea today, 
this strategy may also fail. But media reports of accounts by Thae 
Yong-ho, a high-ranking North Korean official who recently defected, 
suggest that dissenting opinions and discontent do exist among high-
level North Korean elites. The United States and its allies should seek 
to communicate a clear message and guarantee to those around Kim Jong-
un that there is a viable alternative path forward for North Korea if 
it abandons nuclear weapons and conforms to international norms, 
including on human rights.
    The creation of such a pathway would involve three prongs: a) 
governmental support for an authoritative study that envisions and 
projects benefits for the North Korean economy and its elites that 
would accrue in the event that North Korea denuclearizes, b) the 
establishment of a more clear pathway for elite defectors from North 
Korea who might prefer to come to Europe or the United States versus 
going to South Korea, c) the establishment of a pathway for North 
Korean high-level defectors designated by the U.S. Treasury under 
sanctions to receive a significant economic package if they defect 
while the Kim regime is still in power in Pyongyang.

    The Chairman. Thank you both for your testimony.
    I am going to reserve my time for interjections and turn to 
our distinguished ranking member, Ben Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    I thank both of you for your observations. It is not very 
encouraging, your observations, but I think it is an accurate 
assessment.
    So, I want to get to how we can change the equation for 
North Korea. They are not going to do it voluntarily if we 
continue down the current path. They are going to stay the way 
they are. You mentioned that we want to minimize their 
development of conventional and strategic weapons. That 
requires strengthening the sanction regime, making sure it is 
enforced, and moving toward secondary sanctions.
    That cannot work unless China cooperates, and we have not 
seen China anxious to join us in tightening the economic 
sanctions against North Korea or tightening even their ability 
to be able to obtain strategic and conventional weaponry.
    So how do we change the equation with China?
    We also might add that we have the challenges of President 
Trump that, in his comments with China, he has not exactly been 
as warming as he has to other countries in the world.
    What would you recommend? Can we change the equation for 
China that will make a difference to North Korea? And if so, 
how do we go about doing that?
    Mr. Snyder. I think this is really the nub of the challenge 
that we face in terms of any kind of enforcement related to the 
sanctions on North Korea, and it is a critical task in order to 
have the opportunity to change Kim Jong-un's direction, which 
is absolutely essential. But the problem is we need China to 
enforce sanctions, but they are never going to do it 
sufficiently to bring us to the point where Kim Jong-un is 
going to make that strategic decision, so we need something 
extra.
    Senator Cardin. Do you think we can work around China, we 
can do it without China?
    Mr. Snyder. No, I think we have to do it with China, but 
also go beyond.
    Senator Cardin. I do not follow what you are saying. Going 
beyond China? Tell me specifically what you mean.
    Mr. Snyder. I believe that secondary sanctions on Chinese 
partners of North Korea will be necessary in order to bring----
    Senator Cardin. We can do that without China's cooperation?
    Mr. Snyder. I think that we should--I think where it 
concerns our direct national interest, then it is going to be a 
necessity for us to pursue defensive measures and sanctions 
that are designed to stop----
    Senator Cardin. So because China is not cooperating, we are 
going to have to treat China as an adversary?
    Mr. Snyder. No, I want to cooperate with China, and I want 
to do more.
    Senator Cardin. I am not sure I exactly understand. You are 
saying China is not going to work with us, we are going to 
impose secondary sanctions on their companies, they are going 
to complain about that, but we are going to do it anyway?
    Mr. Snyder. I think that where we can make a compelling 
case that there is a direct threat from North Korea that China 
is not assisting us in neutralizing----
    Senator Cardin. We have not seen this before. China has not 
been open to these types of suggestions in the past, at least I 
have not seen it. They will take it to a certain extent. They 
do not want to jeopardize, as they see it, the stability of the 
North Korean regime. So it appears to at least some of us that 
they are prepared to have a nuclear North Korea. So, therefore, 
it appears to us that they are not willing to take it to the 
next step.
    Mr. Snyder. I agree with that.
    Dr. Eberstadt. Senator Cardin, it is always a little bit of 
a headache for me to understand the Chinese government's actual 
calculations about the DPRK, because the government makes its 
relationships so very opaque with North Korea. There is very, 
very little transparency for outsiders. My own conclusion in 
trying to examine Chinese behavior with North Korea is that the 
Chinese government is happy to have an unhappy relationship 
itself with North Korea so long as the relationship is even 
unhappier for the United States and U.S. allies, a kind of net-
net situation.
    Given that, if that is correct, I think that there may be 
some scope for increasing penalties and disincentives for China 
that might make the Chinese government more interested in 
cooperating with us. I mean, one example is Scott Snyder was 
talking about secondary sanctions. We can look back at the 
example of what led up to the Banco Delta Asia affair. With the 
threat of secondary sanctions in the financial area, the 
Chinese government suddenly became very interested in 
preventing illicit money laundering with the DPRK.
    There are other areas outside of sanctions that may 
actually help to possibly encourage Chinese performance. 
Reputational issues. For example, in the forum of the United 
Nations or other places, we can take a position which forces 
China into ownership, into reputational ownership for their 
odious support of the DPRK. China has many interests 
internationally, and the DPRK is only one of them.
    Senator Cardin. Thank you. I appreciate that.
    I do want to just get on the record that if North Korea 
moves towards establishing its nuclear capacity as far as 
weapons, is it not more likely that the Republic of Korea and 
Japan may very well start to show some interest in a nuclear 
capacity themselves?
    Dr. Eberstadt. Very possibly so, sir.
    Senator Cardin. Thank you, Mr. Chairman.
    The Chairman. Thank you, sir.
    Senator Johnson?
    Senator Johnson. Thank you, Mr. Chairman.
    Dr. Eberstadt, you pretty well laid out a strategic 
planning process here based on the reality, establish goals and 
develop strategies. So the reality is pretty bleak. It has been 
a bipartisan failure because we have been denying reality.
    I think both of you gentlemen are saying diplomacy is 
really not going to work. We are going to either have to defend 
ourselves or we are going to have to put pressure on the elite, 
create pain for them because, let's face it, this regime has 
inflicted and is willing to inflict all kinds of pain on the 
general population. They just do not care because they want 
those nuclear weapons.
    So let me start with the elite. How do we inflict the kind 
of pain on the elites to get them to defect, to potentially 
result in the fall of the regime?
    Yes, Mr. Eberstadt?
    Dr. Eberstadt. Well, Senator Johnson, I think that we have 
a real helper in dear respected leader Kim Jong-un, who 
executed his uncle and showed that there was no safe space, 
even within the royal family, for people at the top if they 
crossed the supreme leader. With other purges and other 
executions, he may already have damaged the cohesion of the 
upper ranks of his regime more than we appreciate, but it is a 
black box, so we can only speculate about that.
    Senator Johnson. We should probably try to create as much 
pain for the elites but also give them a way to escape. Does 
that make sense?
    Dr. Eberstadt. Absolutely, absolutely.
    Senator Johnson. Mr. Snyder, do you agree with that 
assessment?
    Mr. Snyder. Yes. In fact, I advocated some measures to 
augment our efforts in that area in my written testimony.
    Senator Johnson. Short of military strikes against their 
nuclear facilities, they are going to continue to develop their 
nuclear capability. They are also going to continue to develop 
their delivery capability. That is something we can potentially 
do something about. We have, to my knowledge, never knocked out 
one of their missile tests; correct? What is the fear? I mean, 
I think I know what it is, but describe our concern about doing 
that. Is that maybe something this next administration ought to 
draw a red line and say we are not going to allow you to test 
the capability to deliver those nuclear weapons to America?
    Dr. Eberstadt. Sir, I think the immediate fear is the city 
of Seoul, which is right across the border from the DPRK and is 
virtually undefended against artillery and weapons of mass 
destruction. Of course, there would be other targets as well, 
but that is a huge population center nearby.
    In dealing with the question of shooting down a missile 
test, it would not be a one off. Whatever else one can say 
about the North Korean side, they present a rather freakish 
face to the world but they are not crazy and not irrational, 
and they give a great deal of thought to their regime's self-
preservation. Everything that we do in interacting with them 
they themselves have gamed through 100 times. They go into 
great preparations, and we, I think, would need to have a 
comparable level of preparation and thought to each one of our 
moves in countering the DPRK in a strategy.
    Senator Johnson. So again, let's go back to the reality. 
They are not going to give up their nuclear capability. They 
are going to continue to improve it, develop it. They are going 
to continue to improve their missile capability, and the way 
they improve their missile capability is they keep testing it. 
As long as we allow them to keep testing their missile 
capability, at some point in time they will have the ICBMs or 
the satellite capability to load a nuclear weapon on there and 
threaten us.
    Dr. Eberstadt. Sir, my assessment is that the North Korean 
government for decades has been methodically preparing to fight 
and win a limited nuclear war against the United States in the 
Korean peninsula. I know that sounds like Dr. Strangelove. I 
know what that sounds like. But I believe the----
    Senator Johnson. Let me stop you there. Are you talking 
about theater nuclear weapons?
    Dr. Eberstadt. A nuclear showdown with the United States in 
which the United States, in this hypothesis, would blink. When 
the United States blinks in this hypothesis, the alliance with 
South Korea is finished, and maybe the alliance with Japan is 
finished as well. Of course, this means that addressing every 
step of further increase in North Korean nuclear capabilities 
is important, but I was suggesting that we cannot do this as a 
one off. We have to have our plan in line to counter the next 
step that they will be taking.
    Senator Johnson. But again, the reality is diplomacy will 
not work. Short of really the regime falling and a new regime 
coming in that was willing to give up nuclear weapons, is there 
nothing we can do to prevent them from gaining that missile 
capability, combined with their nuclear capability, to threaten 
us?
    Mr. Snyder, you have 4 seconds.
    Mr. Snyder. I think the strategy would really be one that 
is designed to change the calculus of the leader and make him 
turn and change direction. So it is really, I think, a menu of 
economic pressures that put the survival of the regime at risk.
    Senator Johnson. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I think that was a great line of questioning, and I do not 
think any of you really think that secondary sanctions on 
Chinese companies is going to affect the trajectory of what is 
happening. So I think what you all are espousing is either some 
kind of kinetic intervention or regime change, and sanctions 
are basically a piddling effort that are not going to have the 
kind of impact that we would like to see. Even though we passed 
a very strong piece of legislation, it is piddling compared to 
the challenge that we have. Is that what you are saying?
    Dr. Eberstadt. No, sir. I think that sanctions are good as 
far as they go. It is better to have sanctions than not, and if 
we can have more economic pressure than we have yet put on. The 
history of coercive economic diplomacy, as you know, is pretty 
poor. Sanctions generally have not succeeded in their 
diplomatic objectives by the countries that have been----
    The Chairman. But if we do not either pursue some kind of 
kinetic activity and, as you mentioned, game it out properly, 
or if we pursue regime change, they will, in fact, soon be able 
to deliver a miniaturized nuclear weapon at long distances. Is 
that correct?
    Dr. Eberstadt. The outside world's understanding has always 
been a little bit iffy about this, but that certainly would be 
the expectation. That certainly would be the North Korean 
intention, to develop this capability.
    The Chairman. Senator Menendez, I filibustered long enough 
for you to be next in line.
    Senator Menendez. Mr. Chairman, I appreciate that, although 
I am sure my colleagues would have gone ahead.
    Let me thank you for having finally a policy discussion. I 
appreciate that. North Korea is fitting and appropriate to be 
one of the first policy issues we have up because it is a real 
challenge to the national security of the United States and to 
critical allies. I was pleased to work with Chairman Gardner in 
the last Congress on the North Korea Sanctions and Policy 
Enhancement Act. I was pleased to see the Treasury Department 
last year impose sanctions on a Chinese industrial company for 
using front companies to facilitate North Korea's nuclear 
weapons and ballistic missile program by evading sanctions.
    But it is clear, however, that much more must be done. 
Having caught some of the testimony in my office in-between 
meetings, it just strikes me the nature of your testimony and 
the issues we face.
    I would like to pursue one line of questioning with you, 
which is we have seen the impact that a robust multi-lateral 
and secondary sanctions regime can have in curtailing a 
dangerous regime's nuclear ambitions. In the case of Iran, 
years of targeted sanctions, particularly prohibitions on banks 
facilitating businesses with Iran, were instrumental in getting 
Iran to change its calculus and come to the negotiating table. 
Do you think an approach that incorporates sanctions 
specifically targeting Chinese banks that facilitate 
transactions that directly benefit North Korea's nuclear 
program, ballistic missile development or arms exporting would 
be effective? And what are your views in terms of that type of 
targeted sanction as it relates to China?
    Mr. Snyder. Well, Senator, I think that it is probably in 
the area of the next step that one would have to look at. I 
think that the challenge really that we are talking about when 
we are talking about cooperation with China and use of 
secondary sanctions, it is kind of like blowing up a balloon 
and needing to have the balloon as full as possible, and yet 
also requiring something additional to fill the space, some 
sharp instrument. So you need to fill the balloon without 
puncturing the balloon, and I think that secondary sanctions, 
if judiciously employed, can offer a deterrent effect on 
Chinese banks because of the reputational risk that they would 
incur. The challenge, of course, is at what level, and how 
would China respond. So finding that balance and really finding 
ways to target North Korean transactions without suffering 
collateral impacts I think is the core challenge here.
    Senator Menendez. Dr. Eberstadt?
    Dr. Eberstadt. Senator Menendez, I mentioned earlier in 
response to a question from Senator Cardin the whole example of 
the U.S. approach that led to the Banco Delta Asia affair. I 
think that was an example of how secondary sanctions against 
China and potentially against Chinese banks can be effective in 
changing Chinese policy towards the DPRK. When Chinese 
interests are threatened, China responds on the DPRK front. We 
have seen that in a separate realm in looking at THAAD, the 
Terminal High Altitude Area Defense question with South Korea. 
All of a sudden, China got real interested, if temporarily, in 
North Korean economic relations.
    My impression would be that such an approach could reduce 
North Korea's capacity, its pace, of nuclear development by 
reducing resources to North Korea, but it might not have any 
effect at all on North Korean objectives.
    Senator Menendez. So, even reducing the pace at this time 
would buy us time for other policy considerations, because the 
pace, it seems to me, is pretty precipitous.
    Let me ask you one final thing. If President Trump indeed 
follows through on many of his threats to be tougher on China, 
what implications would a different kind of relationship with 
China have on our efforts to counter North Korea? Does an 
uncertain relationship with China, calling for more vigorous 
responses to Chinese aggression on the one hand, and 
threatening a trade war on the other, embolden North Korea? I 
mean, I am trying to think about that as I think about 
secondary sanctions, which I think actually--and it is always a 
question of calibration--is important. But up to now, the 
Chinese have not been fully engaged with everything they can do 
to achieve the goal that we want, which is to get North Korea 
to change its path.
    By the same token, if we have this new relationship, 
challenging relationship with China, how does that affect the 
relationship in your views?
    Mr. Snyder. I am concerned that a more adversarial 
relationship with China could expand the space for North Korea 
to get away with a lot more. But at the same time, a certain 
element of conflict is going to be inevitable because the U.S. 
and China simply have differing strategic objectives as it 
relates to North Korea. We have different bottom lines.
    Dr. Eberstadt. I completely agree with Scott about the 
difference in U.S. and Chinese approaches to the DPRK. The 
North Korean government is not good at a lot of things, but one 
thing they are really good at is gaming other countries that 
they deal with and looking for spaces in which to take 
advantage.
    I suspect that China can become a more responsible citizen 
in regard to North Korea, but only if it is forced to bear a 
reputational cost for its sponsorship of that regime.
    The Chairman. Senator Gardner, just before you ask your 
questions, I would like to just--the U.N. Security Council has 
a Chapter 7 resolution against everything that they are doing. 
A Chapter 7 resolution is one that is obviously the strongest, 
and in some cases has been the thing that has been utilized 
relative to actual kinetic activities. But again, nothing is 
happening, and I personally do not think secondary sanctions 
are going to have an effect here. I just do not. I think it is 
either regime change or some other activity. It seems to me 
that we are on a course that is not going to be altered by 
sanctions, even though you guys have done an outstanding job of 
passing legislation towards that end. The Treasury has worked 
in conjunction with that to stronger enforcement.
    Senator Gardner?
    Senator Gardner. Well, thank you, Mr. Chairman.
    I do agree with Senator Menendez. The fact that this full 
committee hearing, our first time to discuss policy, is on 
North Korea I think highlights the importance of this issue to 
the Senate and the work that we have before us over the next 
several years, and I thank Senator Menendez for his leadership 
on the issue of North Korea as we work together to try to bring 
some coherent policies to this denuclearization effort.
    I was pleased, of course, with the committee hearing we 
held with the Secretary-designate, Rex Tillerson, talking about 
his position on North Korea and efforts to be strong and to 
stand up to North Korea and to fully implement the legislation 
that we passed unanimously through the U.S. Senate last year in 
regards to North Korea sanctions.
    I was also pleased with the conversation that President 
Trump had with the acting president of South Korea, discussions 
fully reiterating our alliance and commitment to South Korea, 
as well as the conversation leading to the deployment of THAAD. 
I think THAAD is a very important piece of the strategic 
actions the United States needs to take, and I hope that that 
is as expedient as possible in terms of delivering, 
implementing, and getting the THAAD system up and running in 
South Korea.
    I also think it is important to recognize Secretary Mattis' 
decision to make his first visit out of the United States to 
our allies in South Korea and Japan. I think that is very 
important and shows again the priority that we have as it 
relates to Pyongyang and our determination to make sure that 
our allies remain safe and secure and we denuclearize the 
peninsula.
    Just an overall question. Chairman Corker brings up an 
interesting point about the interests or desires of China, the 
impact or effect of secondary sanctions. Here is an article 
that talks about that China unexpectedly boosted imports of 
coal from North Korea last month. This is even after Beijing 
slapped a temporary ban on shipments from its northern neighbor 
ahead of fresh U.N. sanctions that came into effect this month. 
It talks about how much coal imports increased last year 
despite the sanctions. The United Nations has 2270 in place 
that China agreed to. In late November they agreed to, I think 
it was 23--talking about further limiting the so-called 
livelihood exemption of coal.
    Is China even interested in a resolution of this? Does 
China want the North Korean regime to remain in place? Which 
concerns them more, a denuclearized regime with a unified 
peninsula, or nuclear weapons in the hands of the DPRK? Which 
is the greater concern to China?
    Mr. Snyder. Destabilization is clearly the greater concern 
for China.
    Senator Gardner. So not nuclear weapons.
    Mr. Snyder. They, I think, are--there is a limited 
agreement between the United States and China on the 
desirability of denuclearization, but for China only within the 
bounds of maintaining stability.
    Senator Gardner. Dr. Eberstadt?
    Dr. Eberstadt. I agree with Scott on that. We have only 
China's behavior to go by since the Chinese government is so 
terribly opaque about its actual relationship with the DPRK. 
But if one tries to make sense of the behavior, it looks as if 
keeping a zone of strategic defense in northern Korea would 
seem to be a very, very important objective to the Chinese 
government.
    Senator Gardner. And in that line of thinking, does China 
view our inability to denuclearize the regime as a way to 
weaken our lines with South Korea and Japan and show weakness 
by the United States in terms of our foreign policy? Are they 
more interested in that?
    Dr. Eberstadt. On the net-net basis that I discussed 
earlier, yes. If it is more of a problem for the United States 
than for China, then it would seem to be a plus in the calculus 
of the Chinese government, as far as I can make out.
    Senator Gardner. So recognizing that China is not 
necessarily interested in denuclearizing the regime, they would 
like to see that as long as they see this buffer in place or 
there is unity on the peninsula in a way that they desire, our 
secondary sanctions have little effect or great effect?
    Mr. Snyder. The secondary sanctions I think in some form 
are going to be necessary to try to hold China's feet to the 
fire.
    Senator Gardner. And let me just ask you this, though. 
There is no further action that Congress needs to take in order 
to apply any degree of sanctions on China or the North Korean 
regime, correct? The administration is fully empowered to take 
every sanction step necessary. There is no other authorization 
they need, correct?
    Mr. Snyder. I think that the legislation that you and 
Senator Menendez co-sponsored was quite comprehensive.
    Dr. Eberstadt. And also under the Patriot Act. I mean, the 
secondary sanctions in the financial system I think could be 
tremendously powerful.
    Senator Gardner. And so moving forward, the regime, a 
special envoy, or I think it was you, Mr. Snyder, that talked 
about the need for a special envoy, what areas should the Trump 
administration focus on first in terms of secondary sanctions 
in China?
    Mr. Snyder. The obvious sectors where China is falling 
short and that provide North Korea with economic sustenance are 
in the coal sector, and also in terms of financial access to 
the Chinese banking system.
    Senator Gardner. Okay, so coal and banking. We can add 
additional sanctions on coal--on banking, excuse me. On coal, 
do you believe that China will adhere to the limit they agreed 
to in the November UNSCR on coal and the likelihood exemption 
cap?
    Mr. Snyder. The initial record shows that they already 
failed. The problem with the statistics that we are all relying 
on and that I presented in my testimony is that they are 
official statistics provided by the government of China, and 
they may not include everything that goes between North Korea 
and China.
    Senator Gardner. So if they have already failed the most 
recent UNSCR in November 2016, if they have already failed, 
what measure can we take immediately at the United Nations? I 
think, Dr. Eberstadt, you talked about their reputation. What 
should we do at the United Nations immediately to show China 
that this is unacceptable?
    Dr. Eberstadt. To begin with, it seems to me that we have 
our priorities kind of backwards at the U.N. Security Council 
when we are dealing with DPRK questions. We always seem to be 
worried that the Chinese government might veto something. I 
think we should make China veto something 20 times in a row, 
see how they like it the 21st time. It is the analogy to Colin 
Powell's ``you broke it, you own it.''
    Senator Gardner. I understand. Thank you.
    The Chairman. Senator Merkley?
    Senator Merkley. Thank you, Mr. Chairman.
    Thank you both for your testimony.
    Back in 2016, in response to North Korea's fourth 
prohibited nuclear test in January, and then the launch of a 
prohibited missile in February, there was the March resolution 
2270, and it had numerous provisions, one of which was 
mandatory inspections of cargo passing to and from North Korea, 
and the second was to terminate banking relationships with 
North Korea's institutions.
    Can you bring us up to date on how effectively either the 
mandatory inspections or the banking relationship ban have been 
enforced?
    Mr. Snyder. I think there are still some holes. I believe 
that there probably are still financial relationships, Chinese 
banks that have North Korean accounts that may be in violation 
of the resolution, and there are reports that there may also be 
shipping activity between China and North Korea involving 
ships, North Korean ships that cut off their navigation system 
and therefore are not monitored by the international community.
    Senator Merkley. So I had heard that, in general, there had 
been quite a significant tightening on the banking side. While 
there may be still exceptions, that part had been considered to 
be relatively successful. Do you not share that opinion? Just a 
short answer. I am not looking for a full analysis of it here.
    Mr. Snyder. I think there is more that can be done.
    Senator Merkley. Okay. And Mr. Eberstadt?
    Dr. Eberstadt. I think it has only met with limited 
success.
    Senator Merkley. I would love to follow up and get a better 
understanding of that because I think it is relevant to what we 
consider doing in the future.
    And then the issue of coal, there were sectorial 
restrictions that were largely ignored under a loophole, which 
led to 2321 being passed late last year in November that put a 
hard binding cap on coal exports, which is the largest source 
of revenue to North Korea. I do not believe we yet know how 
effective that is going to be, but just looking at the December 
numbers, it does not look promising so far. Is that fair to 
say?
    Mr. Snyder. Correct.
    Dr. Eberstadt. Yes, sir. It is very curious that as China's 
apprehension about the prospects of implementation of THAAD in 
South Korea seem to be diminishing, their coal supplies to 
North Korea seem to be increasing.
    Senator Merkley. Coal supplies to----
    Dr. Eberstadt. To North Korea. I am sorry, the exports.
    Senator Merkley. It is the exports.
    Dr. Eberstadt. Yes, the trade with North Korea and coal 
seems to be increasing.
    Senator Merkley. So if I was to turn to the North Korean 
perspective, if they are looking at U.S. intervention in Iraq 
back in 2003 and NATO's involvement in Libya in 2011, do either 
of those interventions affect their national perspective on 
their nuclear program?
    Mr. Snyder. I think the North Koreans have stated clearly 
that they have taken the Libya model from their perspective as 
a reason why they need to hold on to their nuclear weapons 
program.
    Senator Merkley. Because Libya had voluntarily retired its 
nuclear program under international assurances of non-
aggression, and, in fact, those assurances fell apart?
    Mr. Snyder. Well, the fact that the regime failed.
    Senator Merkley. Yes. Mr. Eberstadt, do you share that 
point of view?
    Dr. Eberstadt. Libya is one of the reasons the DPRK regime 
explicitly points to when proclaiming its need to remain a 
nuclear power.
    Senator Merkley. So we have a couple of tweets from our 
President regarding long-range missile tests, whether missiles 
would be developed. I think the tweet was, ``It won't happen,'' 
and also expressing skepticism about the Chinese partnership in 
the sanctions. Are the tweets useful in setting out a 
presidential perspective, or not?
    Mr. Snyder. If I had confidence that they were backed by a 
whole-of-government strategy in order to be able to pursue the 
statements, then I would feel much better about it.
    Dr. Eberstadt. We really need a coherent strategy and a 
sustained strategy to make the threat smaller. I do not think 
we can do it with one-offs.
    Senator Merkley. Thank you very much. I think that 
reinforces the point Senator Cardin was making in the beginning 
about a coherent strategy. Thanks.
    The Chairman. Thank you so much. I do want to thank Senator 
Merkley. On the Libya issue, to me it is Exhibit A that the 
regime did not fail, we took the regime out. So they gave up 
their weapons of mass destruction, and what the whole world 
learned from that, which is why I thought it was a terrible, 
terrible period of time for U.S. foreign policy, they learned 
from that that if you get rid of your weapons of mass 
destruction, we will take you out, and that is what I think he 
has learned very well.
    Senator Young?
    Senator Young. Thank you, Chairman.
    And thank you for your testimony, gentlemen.
    I just stepped back into the room. I gather one of you 
indicated that eroding Kim Jong-un's support base by 
facilitating more elite departures like those we recently saw 
at the embassy there at the U.K. was one tactic we should 
continue to exploit. Could you indicate some specific ideas 
that we might employ to get more of the elites who surround and 
support Kim Jong-un to come our way?
    Mr. Snyder. Yes. I have two specific proposals cited in my 
testimony related to that. One is the need for especially South 
Korea and others to present for discussion and hopefully for 
digestion by North Korean elites what an integrated North 
Korean economy would look like without nuclear weapons.
    The fact of the matter is that this is the fastest growing 
economic region in the world, and they are only averaging 
something like zero to 1 percent growth. The reason for the gap 
between the Chinese rate or the South Korean rate of growth and 
the North Korean rate of growth is North Korea's nuclear 
weapons program.
    Additionally, I would propose to attach tangible rewards 
for those defectors who leave North Korea who have been 
designated under U.S. Treasury sanctions if they leave prior to 
the end of the Kim Jong-un regime. I think it would be a 
worthwhile investment to provide that personal incentive.
    Senator Young. Thank you.
    Dr. Eberstadt. There is a wonderful little center called 
the International Center for Non-Violent Resistance. The 
important word is ``resistance.'' ``Non-violent'' is the 
adjective. They have been trying to develop over the years 
playbooks for bringing down dictatorships, and their approach 
focuses on different practical methods that one can exploit and 
widen the cleavages within authoritarian closed societies. They 
have a lot of suggestions for how to approach North Korea even 
though the idea of exploiting these fissures may still seem 
remote at the moment.
    I would also mention, in addition to all of the sensible 
things that Scott has just suggested, that we focus on 
reunification planning as well, because the whole question of 
what a free and peaceful post-DPRK North Korea will look like 
will have a great deal to do with the behavior of people who 
are currently in the North Korean elite.
    Senator Young. So presumably focus with some measure of 
specificity on this sort of planning could offer some comfort 
to the Chinese, who have a real concern about instability in 
North Korea. Would you agree with that assessment?
    Dr. Eberstadt. Yes, sir. It could offer some clarity to 
Beijing. Certainly much of the policy would have to be based in 
Seoul since the ROK presumably would be the sovereign presiding 
over this area. We would be cooperating with that. But there 
are all sorts of signals that could be sent by such planning, 
like who is charged with crimes against humanity and who is not 
in a post-DPRK environment.
    Senator Young. Dr. Eberstadt, you mentioned THAAD and 
China's response and concerns related to its deployment in 
South Korea. Should we continue to take additional steps like 
that in the region until China becomes more helpful on North 
Korea?
    Dr. Eberstadt. I would think by all means we should be 
increasing the missile defense capabilities of the United 
States and of our allies, and I do not know that that 
necessarily should be a bargaining chip in negotiations with 
China if it concerns the security of our allies and the USA.
    Mr. Snyder. If I could add, I agree that use of missile 
defense should not be a tactic to try to change China's 
approach. It is really a self-defensive measure that is 
essential for us to be able to counter what North Korea is 
doing, and I think it is important not to send a signal that it 
could be used as a tactic because it actually might encourage 
exactly the kind of behavior that we are seeing from China to 
impose economic consequences on South Korea for adopting the 
missile system.
    Senator Young. I will be submitting a couple of additional 
questions as my time runs out here related to whether or not it 
serves a national security interest of the United States to 
encourage additional countries in the region from developing a 
nuclear capability. Thank you.
    The Chairman. Thank you, sir. Thank you very much.
    Senator Markey?
    Senator Markey. Thank you, Mr. Chairman.
    Mr. Snyder, early last year I voted for the North Korea 
Sanctions and Policy Enhancement Act. I believe that sanctions 
can offer a path for putting pressure on North Korea to return 
to negotiations aimed at denuclearizing the Korean peninsula. 
However, at the time I also warned on the Senate floor that 
plans to use preemptive force against North Korea's nuclear 
arsenal or its leadership could drastically increase the risk 
of inadvertent nuclear war.
    A few months ago, in September, South Korea's defense 
minister informed the parliament that South Korea has forces on 
standby that are ready to assassinate Kim Jong-un if South 
Korea feels threatened by nuclear weapons. As he said then, 
South Korea has a plan to use precision missile capabilities to 
target the enemy's facilities in major areas, as well as 
eliminating the enemy's leadership.
    If North Korea fears that South Korea intends to use 
preemptive force to kill its leaders, that could create 
pressures for Kim to delegate control over his nuclear weapons 
to frontline military commanders. This would be a highly 
destabilizing step. And if North Korea believes that South 
Korea plans to preemptively take out its nuclear weapons, that 
could put pressure on Kim to use his nuclear weapons or lose 
them.
    Mr. Snyder, can you share your view as to whether plans and 
statements focused on preemptive attacks against North Korea's 
leadership or its nuclear arsenal could actually increase the 
risk of nuclear escalation?
    Mr. Snyder. I think that there are inherent risks in 
escalation based on the strategy that North Korea is pursuing, 
and it is important for the U.S. and South Korea to respond in 
an alliance form to that growing threat.
    The one area where I think I have a slight--where your 
statement actually differs from my expectation is that I do not 
believe that North Korea is a regime in which the leader is 
going to delegate nuclear authority. It is a regime in which 
Kim Jong-un is going to hold tight to that nuclear authority; 
and, in fact, he is using it as the basis upon which to exert 
and provide support and legitimation for his rule.
    Senator Markey. Okay. So you are saying that he would never 
create an instruction to his subordinates that in the event 
that he is dead, that the nuclear weapons should then just be 
used to annihilate the other side. You do not believe he would 
ever leave instructions like that?
    Mr. Snyder. Well, to be honest, I have not contemplated, 
and I do not think we really have a way to know----
    Senator Markey. In other words, a doomsday machine that he 
creates, that those are his instructions. You do not think he 
would ever do that?
    Mr. Snyder. The absence of a line of authority would open 
up all sorts of questions about the future of North Korea, and 
one of the issues that we have to be very concerned about is 
the loose nukes issue.
    Senator Markey. No, and I agree with that, but the 
Strangelovian doomsday machine aspect of this is very real, and 
I guess the larger point that I am trying to make is should we, 
in fact, be talking in terms of preemptive attacks against 
them? Do you think that is a dangerous action for the United 
States or South Korea to be engaging in?
    Mr. Snyder. Talking?
    Senator Markey. About preemptive action against North 
Korea, assassination against him, preemptive attacks to take 
out his nuclear capability. Do you think that is a wise 
position for the United States to be supporting?
    Mr. Snyder. I support US-ROK planning in order to deal with 
all scenarios, but I take the point that it is probably not 
wise to broadcast them publicly all the time.
    Senator Markey. Or at any time? Preemptive attempts to kill 
Kim Jong-un, is there any time we should be able to talk about 
that without fearing the law of unintended consequences being 
invoked?
    Mr. Snyder. The U.S. and South Korea need to manage their 
planning in a quiet and effective way to deal with a whole 
range of scenarios.
    Senator Markey. Okay.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, sir.
    Senator Shaheen?
    Senator Shaheen. Thank you, and thank you all very much for 
being here this morning and for your fascinating testimony.
    Observers have suggested that North Korea may soon 
undertake some sort of a significant activity to provoke the 
new Trump administration, whether that is a new nuclear test, a 
missile test, some sort of other attack, which is something 
that I have seen out there in reports. If that were to happen, 
what options do you think the new administration should 
consider in responding to that kind of an action?
    Dr. Eberstadt, you can start.
    Dr. Eberstadt. Well, there are all sorts of declared and 
undeclared actions that we could take. To mention just one, we 
could play ``count the submarines'' from North Korea. We could 
play a game of subtraction. This would not necessarily have to 
be announced. The North Korean side would know about it. It is 
certainly conceivable and possible. There are many other things 
which we could do which would not necessarily have to be----
    Senator Shaheen. Explain a little more what you mean when 
you say count the submarines.
    Dr. Eberstadt. Part of the developing North Korean threat 
is the possibility of submarine-launched ballistic missiles 
which in theory could come near the U.S. and/or other places. 
What happens if they do not return to port? Things are very 
quiet out on the sea.
    There are many different things which we could do, and we 
have a great number of options. But my point in my prepared 
remarks is that we need to coordinate these. We need to think 
about how these link together and how to make a bigger problem 
into a smaller problem rather than the other way around. Some 
of that will involve cooperation with our allies, some of it 
will involve dialogue with countries that are not our allies. 
But the key thing that I would submit is that the North Korean 
government, for all of its other defects, is very, very careful 
in thinking about strategy and how its different actions 
advance its agenda, and we should be thinking about that as 
well.
    Senator Shaheen. So just to pursue the issue that Senator 
Young was raising and that you talked about, Dr. Eberstadt, 
when you suggested that their fear of the THAAD system has been 
reduced, China has increased its co-exports. So I assume you 
are making the assumption that China, if they are afraid of 
actions that we are taking, they are more likely to take action 
in North Korea that we would encourage, and you have indicated 
that in other ways in your statement.
    So should we be thinking about trying to encourage Japan 
and other of our allies, the Philippines, I do not know who 
else, others in Southeast Asia, helping them adopt similar 
missile defense systems? And what do we think the response from 
China would be to that? Would that help in terms of encouraging 
them to further help us to address North Korea?
    Dr. Eberstadt. Senator, in my own view missile defense wins 
on its own merits. As my colleague and friend Scott Snyder was 
saying, I too do not think it should be used as a bargaining 
chip in relations with other governments.
    That being said, the prospect of implementing missile 
defense systems with robustness in Japan and ROK may indeed 
have an impact on China's behavior towards the DPRK and in a 
way which we might find positive.
    Senator Shaheen. And do we think that China would like to 
see a reunited Korean peninsula? Do we think they see that as 
being positive in their interests?
    Either one of you.
    Mr. Snyder. I do not think China would object to a unified 
Korean peninsula if Beijing could be assured that the Korean 
peninsula is going to be friendly to China. So the core issue 
as they look forward toward the possibility of unification is 
really the question of the nature of the security relationship 
with the United States of a unified Korea.
    Dr. Eberstadt. And a divided Korea is not at all against 
China's current interests. It has probably good relations with 
both.
    Senator Shaheen. Right. I am out of time, but let me ask 
one final question, if I could, and that is that there has been 
the suggestion, President Trump has made the statement, as have 
others, that China has absolute control over North Korea. Some 
of the statements that you all have made in your testimony 
suggests that you may not totally agree with that.
    Do you think if China chose to put enough pressure on North 
Korea that it could actually influence their ending their 
nuclear weapons program?
    Mr. Snyder. China's dilemma is that it has all the leverage 
in the world economically, but it is afraid to use it for fear 
that the consequences would be counter-productive to China's 
own national interests.
    Dr. Eberstadt. The Chinese government has a long and very 
bad relationship with the government in Pyongyang, and both 
leaderships at the moment seem to compete to see which one 
holds the other in lower regard.
    That being said, it is very hard to imagine how the Chinese 
government or any other foreign government could force the DPRK 
to sacrifice what it regards as a vital strategic interest, 
which is the development of its nuclear arsenal program.
    Senator Shaheen. Thank you.
    The Chairman. Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman, again. And thanks 
to the witnesses for your patience and helping us understand 
this issue a little bit further.
    Just so I am clear, where are we on a scale of zero to 100 
in terms of planning for reunification of the peninsula? Are we 
at a 50? Are we at a 10? Are we at a 90? Where are we at?
    Dr. Eberstadt. Scott may have a different number. I would 
say about a 3 or a 4.
    Senator Gardner. Okay. Mr. Snyder?
    Mr. Snyder. On a scale of 100?
    Senator Gardner. Yes.
    Mr. Snyder. Yes, it is very low. I think that South Korea 
has done some planning of its own, but there really is not a 
robust alliance planning mechanism for Korean unification.
    Senator Gardner. So has China been a part of any discussion 
taking place on a reunification plan?
    Mr. Snyder. No. Efforts by the U.S. Government to engage 
with China on any aspect of change on the Korean peninsula 
involving instability or contingencies has, as far as I 
understand, not been very successful.
    Senator Gardner. We had the six-party talks. Obviously, 
they failed. So why have we not proceeded with greater plans 
for reunification on the peninsula involving all that we can to 
then settle on a way forward with the North Korea regime? Not 
with them, but basically hoisting it upon them.
    Dr. Eberstadt. I can explain some without excusing. For the 
long period of the Sunshine policy in the south, pro-Sunshine 
policymakers had the posture that such discussions or 
deliberations would be provocative to the DPRK regime. So they 
simply did not even want to be seen thinking about such 
questions. There has been a very reactive tendency in our 
approach to North Korean policy. We respond. North Korea 
decides; we respond. Some of us have been arguing for a very 
long time that we need to have a proactive strategy of threat 
reduction which would include reunification planning, but that 
has not been institutionalized in the US-ROK relationship or 
our relationship with other allies.
    Senator Gardner. Mr. Snyder, you talked a little bit about 
defectors and encouraging information to the regime, 
particularly the elites in North Korea. The bill that we 
authorized I believe authorizes $10 million to help provide 
additional information, ways to get information to the people 
of North Korea. The State Department has rolled some of that 
out, some of those dollars out. What more can we be doing for 
freedom of information to get that information to encourage the 
people of North Korea to think differently about the maniac 
that is Kim Jong-un?
    Mr. Snyder. It is a dynamic situation, I think, because 
actually within the North Korean market, even information 
methods are evolving. There may be areas in the information 
penetration area that really would belong in the intelligence 
sphere that could be examined more carefully. Of course, there 
is a need, I think, to try to expand broadcasts, especially 
broadcasts containing South Korean content, to broader groups--
--
    Senator Gardner. Broadcasts--radio, television programming, 
all of the above?
    Mr. Snyder. Yes, I think so. I mean, taking into account 
that there are certain times of day that are more effective 
than others, all of those avenues. Actually, I think that over 
time we have seen proven empirical evidence that it is working.
    Senator Gardner. What about things like USB drives? There 
has been talk about that. Is that an effective method?
    Mr. Snyder. I think for some segments of the North Korean 
population, yes.
    Senator Gardner. In terms of our alliance with Japan, 
Korea, and the United States, what steps do we need to take to 
continue to increase that relationship? Obviously, Japan and 
Korea entered into an agreement over intelligence sharing 
despite some of the challenges that South Korea has seen in its 
government. What more can we be doing to help bolster the 
trilateral alliance between the three nations?
    Dr. Eberstadt. Well, Senator, the weakest link in the 
trilateral relationship, despite some improvements in the past 
year, is the ROK-Japan link. We can encourage better 
cooperation between Seoul and Tokyo, but we cannot command that 
to happen by ourselves.
    The gap between the ROK and Japan is one of the 
opportunities for North Korea in trying to find cleavages and 
areas of difference with the alliance.
    Senator Gardner. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I know Senator Cardin wanted to enter some material for the 
record.
    Senator Cardin. Mr. Chairman, first let me thank both of 
our witnesses. I found this hearing to be very informative, but 
certainly our options are, in some respects, very heavy. So I 
thank you very much for the information.
    I would ask consent that a statement from former Senator 
Nunn be made part of our record.
    The Chairman. Without objection, that will be entered.

    [The material referred to above can be accessed at the 
following url:]
    https://www.cfr.org/report/sharper-choice-north-korea

    The Chairman. I just have a couple of brief questions. As I 
listened, short of the extreme measures of some type of kinetic 
activity or absolute regime change, is it even a realistic goal 
anymore to talk about the denuclearization of the peninsula?
    Dr. Eberstadt. It is certainly an objective that we can 
consider to proclaim and to attempt to further. It may have 
virtues in creating cohesive alliances and coalitions 
internationally. It may create additional pressure to allow us 
to create additional pressure on the DPRK. But as I mentioned 
in my prepared remarks, what I think we might best be served 
doing now is trying to focus on reducing the real existing 
killing force of the North Korean government.
    The Chairman. Do you want to expand on that?
    Dr. Eberstadt. Sorry?
    The Chairman. Would you please expand on that, the existing 
killing force?
    Dr. Eberstadt. Oh, yes. In my remarks, in my prepared 
statement which I submitted to the record, I tried to outline 
briefly and thematically sort of an approach which I call 
threat reduction. We could call it other things, I suppose. But 
part of it would involve increasing the effectiveness of our 
defenses and our allies' defenses against North Korean killing 
force, and another part of it would involve trying to 
compromise the augmentation of the North Korean government's 
killing force, which would have to mean pressure on the North 
Korean military economy, trying to strike at the cohesion of 
the leadership, attempt to alter China's behavior towards the 
DPRK, which I do not think is totally impossible, focus on 
human rights. We are all for human rights in North Korea, but I 
think a great deal more can be done for human rights in North 
Korea and proclaiming this as an international movement, and in 
preparing for reunification after the DPRK regime. I think all 
of those things could be helpful.
    The Chairman. But it is more or less somewhat hortatory to 
make the statements regarding denuclearization short of some 
kind of extreme occurring down the road. Is that correct? Is 
that what I am hearing you say?
    Dr. Eberstadt. Sorry?
    The Chairman. It is somewhat hortatory to be making 
statements that we are going to denuclearize short of some of 
the extremes that have been discussed?
    Dr. Eberstadt. If we were to abandon now our objective or 
proclamation of the objective of denuclearization of the DPRK 
regime, I think this could have some very important adverse 
consequences on the very allies that we might need.
    The Chairman. I am not suggesting that--I am just 
suggesting that we have gotten to a point, it seems, where 
short of some really dramatic things occurring, they are on 
their way to a nuclear weapon. And we can have hearings where 
we talk about sanctions and all of that, but that is all we are 
really doing. Is that correct?
    Dr. Eberstadt. Senator, for over 20 years I have been 
arguing that the North Korean nuclear problem is the North 
Korean regime and that we will not have denuclearization until 
we have a better class of dictator there.
    The Chairman. Senator Snyder?
    Mr. Snyder. Well, thank you for the promotion.
    [Laughter.]
    The Chairman. Actually, a lot of people do not view it that 
way, but thank you for thinking so.
    [Laughter.]
    Mr. Snyder. I think denuclearization is essential to our 
entire alliance strategy in East Asia, so I do not see how we 
can abandon it. But it also does not mean that there are not 
other things that we can work on while we continue to insist on 
denuclearization as an essential objective as part of our 
strategy.
    The Chairman. But those things are much more subversive, 
are they not? I mean, much more subversive than just continuing 
to complain about secondary sanctions not being enforced and 
those kinds of things. I mean, we have to be a little bit more 
subversive in our activities, or otherwise they are going to 
have a nuclear weapon.
    Mr. Snyder. As long as North Korea has a nuclear weapon, I 
do not see how we are going to be avoiding reaching a 
transformation----
    The Chairman. A deliverable nuclear weapon, right?
    Mr. Snyder. Yes. Regime transformation, whether through 
cooperation or through other forms of challenge, is going to be 
the way that we have to go.
    The Chairman. Well, listen, thank you. You all have been 
outstanding witnesses. Senators who have come by have thanked 
us for having this hearing with the two of you here. We thank 
you for what you have said and your wisdom.
    The record will remain open until the close of business 
Friday. If you could fairly promptly answer questions, we would 
appreciate it. Thank you for your time.
    With that, the meeting is adjourned.
    [Whereupon, at 11:52 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


           Responses of Dr. Nicholas Eberstadt to Questions 
                    Submitted by Senator Todd Young

    Question. Do you believe it is in America's national security 
interests to oppose nuclear proliferation?

    Answer. All other things being equal, a more nuclear world is 
potentially a more dangerous world, given the increasing potential for 
catastrophic miscalculation by the growing number of governments or 
other actors possessed of nuclear weaponry. That being said: it should 
go without saying that nuclear accession by some actors or governments 
will be very much more worrisome than for others. Nuclear accession by 
Switzerland and al Qaeda would have profoundly different implications 
for international security and human security. Part of the threat of 
proliferation, of course, is precisely that the North Koreas and the al 
Qaedas of the world tend to be attracted to nuclear weapon acquisition, 
and not the Switzerlands. The general blanket policy of 
nonproliferation has proven to be an approach to opposing the spread of 
nuclear weaponry that has been able to garner wide international 
support, even from non-democratic governments. Although this approach 
does not explicitly link the risks posed by proliferation to the nature 
or quality of governance in the would-be nuclear state, it has arguably 
been more effective in garnering international support for 
nonproliferation than any alternative approach.

    Question. Do you believe our national security interests are best 
served by discouraging or opposing additional countries from developing 
or obtaining nuclear weapons? Why do you believe that?

    Answer. Generally speaking, weakening of the nonproliferation 
regime would increase the likelihood that dangerous actors and 
governments would pose a new and growing nuclear threat to US national 
security, the security of US allies, and the security of the 
international community. That said, we must recognize that the nature 
of the would-be nuclear actor or state matters greatly with respect to 
the security implications of any specific instance of proliferation. US 
security has been promoted, not compromised, by our formal and blanket 
opposition to international nuclear proliferation. Part and parcel of 
our approach to non-proliferation, of course, has been to extend a 
credible `nuclear guarantee' to our allies so that these states need 
not contemplate the nuclear option to enhance their own perceived 
security.

    Question. If the Japanese or South Koreans were to develop a 
nuclear weapon, do you believe that would be good or bad for U.S. 
national security interests? Why? What would be the regional impact?

    Answer. This is an extremely important question--and very difficult 
to answer in general terms, because the implications would turn so 
directly on specifics. If the ROK and/or Japan were to make the 
decision to become nuclear weapons states, given the fact that both 
countries are constitutional democracies and US military treaty allies, 
such a development would perhaps only be imaginable if the public and 
the leadership of these countries had lost confidence in the US 
`nuclear guarantee'. Needless to say, the circumstances which would 
have led to such a loss of confidence in the US security guarantee 
would in itself presage a more insecure and potentially unstable 
region. And it is easy to imagine how nuclear weapon accession by Seoul 
and Tokyo could contribute to a destabilizing arms race in Northeast 
Asia--paradoxically reducing rather than enhancing the security of both 
states. To date US policy has been firmly opposed to proliferation by 
Seoul and Tokyo, insofar as Washington has committed itself to the 
defense of both states through military alliances, including a `nuclear 
guarantee'. If one gets into speculative exercises or scenarios where 
one attempts to hypothesize about `alternative futures' in which US 
security were actually enhanced by the acquisition of nuclear weapon 
status for Seoul and/or Tokyo, the hypothesized alternative futures are 
ones in which US security prospects are decidedly more problematic than 
our actual prospects today.

    Question. What are your assessments of the Proliferation Security 
Initiative? How could it be strengthened with respect to North Korea?

    Answer. PSI is an important and innovative international 
collaboration, now endorsed by over 100 countries worldwide, and has 
demonstrated utility in countering and interdicting the illicit WMD 
commerce by countries and actors including the DPRK. The keys to 
increasing its effectiveness lie in greater cooperation among law 
enforcement, intelligence, and military circles internationally, 
enhanced resources for these efforts, and greater political leadership 
on the part of the governments committed to this effort. It may also be 
appropriate in some instances to ``call out'' governments that are not 
cooperating, or in some instances perhaps positively subverting, the 
PSI effort. Beijing's behavior may be particularly of interest in this 
respect.

    Question. To what degree do you believe that North Korea and Iran 
have cooperated in their development of ballistic missiles? What 
additional measures could and should the United States and our allies 
take to undermine North Korean cooperation with Iran on ballistic 
missiles?

    Answer. I have no security clearances, and rely entirely upon open 
sources for my information. That said: a detailed literature has 
documented considerable and far-reaching DPRK-Iran collaboration on 
Iranian missile development. We have every reason to believe this 
collaboration continues, and that DPRK is compensated for its 
``services''. Moreover, news reports suggest Iranian observers have 
often been present in North Korea at missile launches, and even nuclear 
tests, begging the question of whether Iran is ``outsourcing'' its WMD 
development to North Korean territory. US intelligence can upgrade the 
priority accorded DPRK international WMD proliferation, including the 
DPRK-Iran connection. And the US might consider serving notice that its 
unfreezing of Iranian assets will be conditioned by any evidence of 
surreptitious Iran-DPRK WMD cooperation.

    Question. Should North Korea be on the State Sponsor of Terrorism 
list?

    Answer. North Korea should never have been removed from the SSOT 
list. There are indications that the DPRK continues to support and 
sponsor terror and terrorist groups internationally, including Hamas 
and Hezbollah. In my view North Korea should be placed back on the SSOT 
list.

    Question. What is the likelihood of a North Korean regime collapse?

    Answer. The likelihood of a North Korean regime collapse is a 
classic case of an intelligence ``unknowable''. Given the information 
asymmetries inherent in such a closed society governed by a 
totalitarian regime, it is likely that the outside world would only 
learn of a North Korean collapse very soon before the event, or maybe 
only as the event were taking place. (The analogy here is the collapse 
of Eastern European and Soviet Communism.) For what it is worth: I 
myself anticipated a North Korean collapse in the 1990s, but my 
expectations were very obviously proven wrong. How close to collapse 
did the North Korean system veer during the era of the Great North 
Korean Famine and the ``Arduous March''? Outsiders cannot tell today--
and probably will not be able to make an informed assessment until they 
come into possession of the Pyongyang archives at some future date.
    With these considerable caveats, I would nonetheless offer two 
observations about the prospect of regime collapse.
    First: given the particular nature of the North Korean system, it 
is difficult to imagine its ``evolution'' or ``reform''. Though some 
eminent Asia hands, for example, at one time mused that the DPRK might 
be capable of mutating into something more like the authoritarian-
developmental state of South Korea in the Park Chung Hee era, such a 
potentiality would appear ever more unlikely with the passage of time 
and the accumulation of evidence that the system is so highly resistant 
to what outsiders would consider ``reform''. Thus systemic change would 
appear increasingly unlikely to lead to a ``soft landing''.
    Second: given that we cannot presume to anticipate the time horizon 
for end of the North Korean regime (or the manner of its ultimate 
demise) with any great accuracy, it is essential that comprehensive 
international preparations for a successful re-unification commence in 
earnest.

    Question. In Dr. Eberstadt's prepared remarks, he states that the 
North Korean regime is ``deadly afraid of what it terms `ideological 
and cultural poisoning''--what we call foreign media, international 
information, and cultural exchanges. While we may want to isolate the 
regime and ratchet up sanctions as much as possible, shouldn't we be 
trying to get as much information to the North Korean people as 
possible? Is it possible to isolate the regime while simultaneously 
trying to expose the North Korean people as much as possible to the 
wider world? How should we go about doing that?

    Answer. Ideally, a broad campaign for promoting what the North 
Korean government terms ``ideological and cultural poisoning'' would 
include exposure of the North Korean population to media, people, 
ideas, music, learning and training from the outside world--most 
especially including exposure to things South Korean, but of course 
including things Chinese, Japanese, American, European (including 
Russia within Europe), and more broadly international. Such an approach 
would extend far beyond broadcasting and DVD delivery into North Korea, 
although of course it would include such efforts. It would be 
beneficial if such an approach included not just the United States 
government's efforts, but the commitment of other governments as well--
and included sustained commitments from civil society circles, not just 
governments. Successfully implementing such an approach would be an 
ambitious long-term multi-dimensional undertaking, not a ``one off''.

    Question. What specific steps could we take to encourage elites in 
North Korea to defect?

    Answer. Encouraging the defection of DPRK elite members--and more 
broadly, attempting to effect a reduction in the cohesion of the 
national leadership--would be part and parcel of the overall ``threat 
reduction'' strategy I mention in my prepared statement for this 
hearing. The specifics of this strategy--the tactics--would likely 
shift over time, as circumstances dictated and as opportunities 
presented themselves. Very broadly speaking, however, such efforts 
would take place against the background of political developments 
within the DPRK which may already be reducing leadership cohesion (viz, 
the killing of other members of the ``royal family'' by Kim Jong Un; 
the apparent decline in confidence in the regime's Supreme Leader; the 
increasingly pervasive corruption and ``transactional'' basis of 
operations under the DPRK state; mounting cynicism about the regime 
itself; increasing inroads by information from abroad, etc.)
    International efforts to stigmatize and delegitimize the North 
Korean regime--for its human rights violations and crimes against 
humanity; its organized crime activities abroad; for its international 
support of terrorism; and for other shameful DPRK policies and 
practices--will be crucial in eroding the internal cohesion of DPRK 
leadership, and may materially conduce toward greater numbers of 
defections of key North Korean personnel as well. Some human rights 
groups have developed coherent strategies of nonviolent resistance that 
can systematically probe and widen regime fissures: even in as closed a 
society as North Korea, some of these techniques and approaches may 
already be relevant. Incentivizing members of the elite to depart could 
also play a role in such an overall approach. But the matter of 
incentivizing defections also begs a number of important questions in 
its own: not least among these, how such defectors will be treated for 
crimes and abuses they may have committed in power, and how justice 
will be administered to regime elites in the post-DPRK era. These are 
important questions and require careful thought, both in the ROK and in 
the international community; they also beg the question of political 
consensus within and between the main governments preparing for a post-
DPRK Korean re-unification.

                                  [all]
</pre></body></html>
